<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                 DEPARTMENT OF THE INTERIOR AND RELATED
                    AGENCIES APPROPRIATIONS FOR 2002

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                              FIRST SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES
                     JOE SKEEN, New Mexico, Chairman
 RALPH REGULA, Ohio                  NORMAN D. DICKS, Washington
 JIM KOLBE, Arizona                  JOHN P. MURTHA, Pennsylvania
 CHARLES H. TAYLOR, North Carolina   JAMES P. MORAN, Virginia
 GEORGE R. NETHERCUTT, Jr.,          MAURICE D. HINCHEY, New York
Washington                           MARTIN OLAV SABO, Minnesota 
 ZACH WAMP, Tennessee
 JACK KINGSTON, Georgia
 JOHN E. PETERSON, Pennsylvania     
                     
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher 
                                 Topik,
                            Staff Assistants

                                ________

                                 PART 8
                                                                   Page
 Smithsonian Institution..........................................    1
 John F. Kennedy Center...........................................   35
 National Endowment for the Arts..................................   47
 National Endowment for the Humanities............................  219
 IMLS--Office of Museum Services..................................  297
 Commission of Fine Arts..........................................  321
 Advisory Council on Historic Preservation........................  341
 National Capital Planning Commission.............................  391
 Holocaust Memorial Council.......................................  415

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 72-391                     WASHINGTON : 2001




                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 [GRAPHIC] [TIFF OMITTED] T2391A.001
 
 [GRAPHIC] [TIFF OMITTED] T2391A.002
 
 [GRAPHIC] [TIFF OMITTED] T2391A.003
 
 [GRAPHIC] [TIFF OMITTED] T2391A.004
 
 [GRAPHIC] [TIFF OMITTED] T2391A.005
 
 [GRAPHIC] [TIFF OMITTED] T2391A.006
 
 [GRAPHIC] [TIFF OMITTED] T2391A.007
 
 [GRAPHIC] [TIFF OMITTED] T2391A.008
 
 [GRAPHIC] [TIFF OMITTED] T2391A.009
 
 [GRAPHIC] [TIFF OMITTED] T2391A.010
 
 [GRAPHIC] [TIFF OMITTED] T2391A.011
 
 [GRAPHIC] [TIFF OMITTED] T2391A.012
 
 [GRAPHIC] [TIFF OMITTED] T2391A.013
 
 [GRAPHIC] [TIFF OMITTED] T2391A.014
 
 [GRAPHIC] [TIFF OMITTED] T2391A.015
 
 [GRAPHIC] [TIFF OMITTED] T2391A.016
 
 [GRAPHIC] [TIFF OMITTED] T2391A.017
 
 [GRAPHIC] [TIFF OMITTED] T2391A.018
 
 [GRAPHIC] [TIFF OMITTED] T2391A.019
 
 [GRAPHIC] [TIFF OMITTED] T2391A.020
 
 [GRAPHIC] [TIFF OMITTED] T2391A.021
 
 [GRAPHIC] [TIFF OMITTED] T2391A.022
 
 [GRAPHIC] [TIFF OMITTED] T2391A.023
 
 [GRAPHIC] [TIFF OMITTED] T2391A.024
 
 [GRAPHIC] [TIFF OMITTED] T2391A.025
 
 [GRAPHIC] [TIFF OMITTED] T2391A.026
 
 [GRAPHIC] [TIFF OMITTED] T2391A.027
 
 [GRAPHIC] [TIFF OMITTED] T2391A.028
 
 [GRAPHIC] [TIFF OMITTED] T2391A.029
 
 [GRAPHIC] [TIFF OMITTED] T2391A.030
 
 [GRAPHIC] [TIFF OMITTED] T2391A.031
 
 [GRAPHIC] [TIFF OMITTED] T2391A.032
 
 [GRAPHIC] [TIFF OMITTED] T2391A.033
 
 [GRAPHIC] [TIFF OMITTED] T2391A.034
 
 [GRAPHIC] [TIFF OMITTED] T2391A.035
 
 [GRAPHIC] [TIFF OMITTED] T2391A.036
 
 [GRAPHIC] [TIFF OMITTED] T2391A.037
 
 [GRAPHIC] [TIFF OMITTED] T2391A.038
 
 [GRAPHIC] [TIFF OMITTED] T2391A.039
 
 [GRAPHIC] [TIFF OMITTED] T2391A.040
 
 [GRAPHIC] [TIFF OMITTED] T2391A.041
 
 [GRAPHIC] [TIFF OMITTED] T2391A.042
 
 [GRAPHIC] [TIFF OMITTED] T2391A.043
 
 [GRAPHIC] [TIFF OMITTED] T2391A.044
 
 [GRAPHIC] [TIFF OMITTED] T2391A.045
 
 [GRAPHIC] [TIFF OMITTED] T2391A.046
 
                                          Wednesday, April 4, 2001.

                    NATIONAL ENDOWMENT FOR THE ARTS

                                WITNESS

BILL IVEY, CHAIRMAN, NATIONAL ENDOWMENT FOR THE ARTS

                            Opening Remarks

    Mr. Skeen. From this point on, we want to begin the NEA 
hearing.
    Would you like to do your statement?
    Mr. Ivey. I would be happy to, Mr. Chairman.
    Mr. Skeen. Let us do that. We will have to go and vote, so 
let us get you started.
    Mr. Ivey. Mr. Chairman, I ask that my prepared remarks be 
admitted into the record.
    Mr. Skeen. It will be done.

                     Opening Statement of Mr. Ivey

    Mr. Ivey. Thank you. I want to say what a pleasure it is to 
talk with the Committee today. I have just a few remarks to 
emphasize; some points that I think are covered in more detail 
in the written testimony.
    I want to congratulate you, Chairman Skeen, on your 
chairmanship of this subcommittee. I recently visited New 
Mexico, had a chance to see a number of very fascinating arts 
programs in your State, and it is good to be here with you 
today.
    I also want to thank Mr. Dicks and, in absentia, Mr. Obey, 
for all of their work in helping to secure what was for the NEA 
its first budget increase since 1992.
    I am here today to support the President's request for a 
budget for the NEA for 2002, of $105.219 million. I think each 
of you would agree that the NEA today is a very different 
agency than it has been at times in the past. The number of 
nonprofit arts organizations has expanded geometrically over 
the past couple of decades, and I think the Endowment in trying 
to serve this constituency has matured in its own reach and its 
own vision and is oriented in its vision toward citizen 
service. And I am proud that we can boast, I think today, 
excellent relations not only with Congress but with the States, 
with arts groups, and our many supporters all over the country.
    We feel that we are a leader in program innovation. We make 
activist grants today to more people in more places, protecting 
heritage, engaging arts education youth services. I think each 
of you has in front of you a copy of our 35th anniversary book, 
Legacy of Leadership, which is what we call our ``greatest 
hits'' volume. It is the grants that have had a continuing 
resonance in the communities in which they were made over a 
number of years. And we are very proud of those grants. And 
each, of course, stands for many hundreds of others that have 
been made over the years.
    I am pleased that the agency engages art and art making in 
America in many different ways. If you watched the News Hour 
last night, you saw toward the end of that program Richard 
Samuel, a glass blower from Seattle, reading one of his 
favorite poems, reciting his favorite poem. And of course that 
favorite poem project, carried forward by our former Poet 
Laureate Robert Pinsky, had its major funding, andthe first 
funding, from the NEA.
    We look forward to an American Roots music series that the 
NEA is funding that will appear on PBS this fall. And we are 
pleased in a very different way to be able to work with the 
Washington State Arts Agency, particularly concentrating on 
Tacoma, in trying to respond to some of the challenges faced by 
artists and arts organizations as a result of the recent 
earthquake.
    So in many different ways, using many different strategies, 
the NEA is involved in the arts in America, creating 
opportunities for people, touring, and festivals.
    We have a wonderful program called Continental Harmony 
which places composers in every State in the Union. We work on 
arts, art making in public housing and in after-school 
programs. We convene leaders, conduct research on arts 
organizations, philanthropic giving, on the status and the 
health of the jazz field, and work extensively in arts 
education.
    In many ways, we are the only agency of government that 
gets up every day and thinks about how the arts are doing in 
this country. So we shine a bright light on excellence, and 
concentrate on those aspects of America's cultural life that 
don't do well, that don't survive easily, left to the 
marketplace alone.
    I know members of this Committee are probably more 
interested in what we are doing with the additional resources 
that were made available last year than in any other topic I 
might cover today.

                       CHALLENGE AMERICA PROGRAM

    Our Challenge America program, which was funded at the 
level of $7 million in fiscal 2001, is, I think, evolving into 
a huge success. Of course, 40 percent of our grant-making 
budget does go to our State arts agency partners, so each 
State's arts agency was able to receive an additional $40,000 
from Challenge America. And that money will fund programs at 
the State level that parallel what we are doing here with our 
direct grants in Challenge America.
    Challenge America really works in three areas. One is the 
continuation of ArtsREACH, trying to get the arts to areas that 
are underserved. We have expanded ArtsREACH to include, not 
only the 20 underserved States that we began with, but parts of 
other States that are underserved. We are targeting Michigan, 
Florida, California, Wisconsin, Texas, Georgia, Ohio, Illinois, 
North Carolina and Louisiana for some special attention. It is 
not only about money, it is about workshops that help applicant 
organizations learn about the process so we can generate more 
activity.
    The second component of Challenge America is a positive 
alternative for youth. This is a continuation of our Arts Link 
program. It connects artists with young people in school and 
after-school programs all over the country. And, again, these 
are fast track, small grants that will turn around very 
quickly.
    Right now we have already received 536 applications from 
every State in the Union for the first part of the Challenge 
America program this year, and we are very aggressively 
stepping up those outreach efforts.

                         LEADERSHIP INITIATIVES

    We also have a couple of important leadership initiatives 
in which we are working directly with organizations to deliver 
services all over the country. The most prominent one that I 
think I will dwell on just for a minute is our partnership with 
HUD, Housing and Urban Development, that we will use HUD money, 
some NEA money, and some funds from the National Guild of 
Community Schools of Art to bring after-school arts 
instruction, at no charge, to young people who are resident in 
public housing.

                                 TRENDS

    You have a chart in front of you that shows how our client 
base has changed. I think it is something that we really have 
to emphasize here today because, if you look at this chart, you 
can see that from 1997 through thus far into 2001, there are 
some very significant trends going on. One is that the number 
of applications has increased every year. Since 1998, the 
number of grants made has increased every year. But, 
unfortunately, as we would expect with a relatively flat 
funding picture, the relative size of each grant, the average 
size, has gone down. So it is pretty clear that our client base 
is expanding and there are some additional demands.
    Do you want to interrupt me to vote?
    Mr. Skeen. Yes, sir.
    Mr. Ivey. All right. I was afraid of that.
    Mr. Skeen. I will appreciate your forbearance.
    Mr. Ivey. I will take up in mid-sentence if I have to.
    Mr. Skeen. We will have a break right now and Mr. Kingston, 
when he comes back, will start again with you. Sorry to leave 
you in a lurch like this.
    Mr. Dicks. We will be right back.
    Mr. Kingston [presiding]. The Chairman is on his way back, 
but in the meantime, I want to continue with your statement.

                       CHALLENGE AMERICA PROGRAM

    Mr. Ivey. Thank you, Mr. Chairman. I will back up just a 
bit and talk about Challenge America a little more slowly. I 
think I was anticipating the vote just as much as you were and 
speeding up a bit.
    So, Challenge America really has been a great success. We 
are looking at the applications in the first set of Challenge 
America grants right now. We have received applications from 
all 50 States. More than 500 applications have come in.
    We are pleased that we were able to move two pilot 
programs, ArtsREACH that I think a number of members 
arefamiliar with because it concentrated on States that had received 
the smallest number of direct NEA grants, and we have also taken our 
Arts Link program, which is the program that connects artists with 
young people in school and after-school programs. Those have become the 
core of the Challenge America small grant program that is underway 
right now.

                         LEADERSHIP INITIATIVES

    We also have some what I would call special projects, we 
call them leadership initiatives, including a partnership with 
Housing and Urban Development to bring free after-school arts 
instruction to young people in 20 public housing centers that 
are funded by HUD. And each is in a different State, so we are 
serving 20 States through that program.

                      CONTINENTAL HARMONY PROGRAM

    We also have our Continental Harmony program which places 
composers in residence in States all over the Nation. In its 
current incarnation, we have placed composers in 17 States this 
year. And we also are initiating a new Website in partnership 
with the not-for-profit organization that provides music in 
school programs, young audiences, to serve as a resource to 
teachers all over the country, to help connect artists in 
schools program with our national standards, our education 
standards in many different disciplines.
    So that is what we have done with the $7 million increase. 
The program is underway right now. The first round of grants 
will be looked at within the next couple of weeks. And the 
second deadline for the ArtsREACH component of Challenge 
America is May 1st.
    So we are very excited about the response that this program 
has generated, and we anticipate that it will extend the reach 
of the agency very significantly, as was intended when 
Challenge America was funded.

                                 TRENDS

    I did mention, just before the Committee broke for its 
vote, that the trend in our NEA funding has been to see a 
growth in our client base, both nationally and in terms of 
organizations that apply to the NEA. We have seen, since 1998, 
a steady increase in the number of applications, a steady 
increase, I am pleased to say, in the number of grants that we 
have actually given.

                             SIZE OF GRANTS

    However, as you would expect, given that we are doing more 
with a relatively flat funding picture, we have seen the 
average size of our grant decrease significantly. In 1997, the 
average grant was $55,000. In 2001 so far, the average grant is 
less than $25,000. It is $23,600.
    We have received 2,756 applications from not-for-profit 
organizations this year, and we anticipate that there will be 
an additional 1,000 applications that will come in before the 
end of the fiscal year because of the Challenge America 
program.

                    PARTNERSHIPS: PUBLIC AND PRIVATE

    I mentioned our HUD partnership, and that is of special 
interest to me because it is a way in which, as pleased as we 
are with the budget request this year and the $7 million 
increase that Congress was able to give to the agency last 
year, we are also pleased that we are able to do more by 
partnering with other agencies.
    We have at present 32 different partnerships with other 
Federal agencies in place. Twenty-seven of them involve those 
agencies putting some money into the programs. The HUD project 
is a very big partnership for us because HUD actually 
transferred $3 million to the NEA to allow us to work with the 
National Guild of Community Schools of the Arts, which 
contributed $500,000, along with $500,000 of our funding, to 
commit a total of $4 million to the free arts education 
programs for young people in public housing.

                          SONGS OF THE CENTURY

    I also want to say just a word about our Songs of the 
Century program. Some of you may have encountered it because 
the list of the 365 most significant recordings of the last 
century generated a good bit of comment in various quarters.
    This is the ballot that was circulated primarily to 
professionals within the recording industry that assisted them 
in selecting those 365 recordings. The most important piece of 
the project is not that we assembled this list of important 
recordings decade by decade, but that these recordings will be 
available in streamed audio from AOL at school by the fall of 
this year, and going into 10,000 classrooms, fifth-grade level, 
along with support materials and curriculum materials developed 
by Scholastic Inc.
    And we have a very, I think, strong partnership that 
involves very little Federal money, significant investment by 
the Recording Industry Association and its partners, that will 
really help take a century of American vernacular music and 
make it a part of what young people encounter not only in their 
study of music in school, but in their study of many other 
disciplines. And there are other partners in line to come 
onboard and make this project even bigger.
    The most important part of the partnership is that it 
really asks the recording industry to see itself as a caretaker 
of a part of America's cultural heritage. I think the industry 
has responded well, and I think it is a very encouraging sign 
to see an industry take up the role of cultural protector and 
the role of conveying cultural heritage to young citizens.
    Most of our money, Challenge America and other grant-
making, goes to very activist-oriented, community-based 
projects in education and access services to young people. Arts 
organizations and artists want to be involved in this work.

                         ADDRESSING CHALLENGES

    But I think in conclusion I would say that there is 
something that we have to always keep in mind, that as we take 
on challenges in education, challenges in the behaviorof young 
people as they become young citizens, as we take on the task of 
bringing the arts to underserved communities in urban areas and in 
geographically remote areas, we are asking our arts organization and 
our artists to do more.
    The core of their work is all about creating and presenting 
work to the American public. Their work is the pursuit of 
excellence. And we want to make certain that as we ask them to 
do more for community, for young people, for families, that we 
don't lose sight of that core mission, and that we find the 
resources down the line to make sure that those organizations 
are as strong as they need to be and those artists have the 
kind of careers that they need to have in order to provide the 
services that we are asking them to give to community and 
family.
    So, members of the committee, Mr. Chairman, with those 
comments, I will conclude, and I welcome any of your questions.
    [The statement of Mr. Ivey follows:]
    [GRAPHIC] [TIFF OMITTED] T2391A.047
    
    [GRAPHIC] [TIFF OMITTED] T2391A.048
    
    [GRAPHIC] [TIFF OMITTED] T2391A.049
    
    [GRAPHIC] [TIFF OMITTED] T2391A.050
    
    [GRAPHIC] [TIFF OMITTED] T2391A.051
    
    [GRAPHIC] [TIFF OMITTED] T2391A.052
    
    [GRAPHIC] [TIFF OMITTED] T2391A.053
    
    [GRAPHIC] [TIFF OMITTED] T2391A.054
    
    [GRAPHIC] [TIFF OMITTED] T2391A.055
    
    [GRAPHIC] [TIFF OMITTED] T2391A.056
    
    [GRAPHIC] [TIFF OMITTED] T2391A.057
    
    [GRAPHIC] [TIFF OMITTED] T2391A.058
    
    Mr. Skeen [presiding]. Thank you very much. Thank you for 
your forbearance since we had to appear and disappear here.
    Mr. Ivey. I understand.
    Mr. Skeen. Any other questions?

                             ARTS EDUCATION

    Mr. Dicks. Well, thank you, Mr. Chairman. I want to again 
welcome Bill Ivey as the chairman of the Endowment. I want to 
thank you for the great job that you have done. I have enjoyed 
working with you. And I deeply appreciate your leadership role, 
your efforts to come up and talk to Members of Congress and 
members of the leadership about what you are doing and the 
importance of the Endowment. I think you have been very 
proactive, as Bill Ferris has. I think that has made a big 
difference. I think people are interested and pleased to hear 
of the progress that is being made by both of the Endowments.
    And in reading your testimony today, it says--citing 
analysis done by researchers at UCLA, the Carnegie Foundation 
for the Advancement of Teachers, Stanford, New York teachers, 
et cetera, ``Evidence that the arts can improve academic 
performance, energize teachers, and transform learning 
environments. The study found students with high levels of art 
participation outperformed arts poor students on virtually 
every measure. The arts have a measurable impact on students in 
high poverty and urban settings. The arts in after-school 
programs guide disadvantaged youth towards positive behavior 
and goals. Learning through the arts has significant effects on 
learning in other disciplines. Arts experiences enhance 
critical thinking abilities. The arts enable educators to reach 
students in effective ways.''
    And I think these are, as you say, I think these are very 
important findings. And it seems to me as we look at the 
performance of the NEA, one of the things to think about is the 
role you can play in helping educate our children. I believe 
that the arts are fundamental. And I always worry in my own 
school, in my own district where, if a levy isn't passed, the 
first thing that seems to go are the arts programs and after-
school programs, things that are important.
    I think especially in this era when we need good after-
school programs and things for kids to be involved in, it just 
seems to me that this is so obvious and yet another strong 
reason to support the work of the Endowment.
    Mr. Ivey. Mr. Dicks, thank you for underlining the 
importance of arts education. It is something that the 
Endowment has increasingly become involved in over the years. 
Obviously, we are forced in all of our work, I think properly, 
of necessity, to be a partner rather than a bill payer.
    So if you look at our ability to fund arts education, the 
actual dollars we can commit are quite tiny. If you look at the 
Endowment's appropriated money, we are able to spend about 
$11.5 million each year, partly in partnership with the States 
on arts education issues.
    And what that ends up doing is working to ensure that we 
develop quality pilot programs that can be examples that 
perhaps can inspire others in other places to do more. I think 
that the statistics, the information that you referred to, are 
summarized in a publication called Champions of Change, which 
was put together by the Department of Education and the 
President's Committee on the Arts and Humanities. And I think 
that that is a very useful report which, if this committee 
hasn't already received, we will make sure you get copies, 
which really talks about the how and the why of this connection 
between arts education and school performance. And it feels to 
me that we learn of more of a positive nature almost every 
month about this connection.
    There are some challenges on the horizon. The NEA was very 
invested in helping to create--first of all, helping to make 
arts a part of the national standards movement. And arts 
standards were a part of Goals 2000, and there was a national 
assessment done. Well, now 2000 has passed, so I think we all 
have to make certain that the arts remain a part of the 
education picture as we move on to new strategies.

                        DEPARTMENT OF EDUCATION

    And also, you know, I mentioned what we are able to invest 
directly with appropriated money. We are very fortunate that we 
have a couple of ongoing partnerships with the Department of 
Education.
    These are not the same kind of partnerships we have, say, 
with HUD where they transfer funds to us. But we are able to 
work on really three different programs with the Department of 
Education in which the NEA advises the Department on how arts 
education money can be invested.
    And we now have a $10 million program for 2001. We are 
still working out the details of exactly what it will contain. 
There is a wonderful program that started as a $1 million 
pilot, expanded into $2 million for 2001, just on media 
literacy, helping to teach kids how to interpret the multiple 
symbols that come at them in television and film and in 
recordings and also how to create in those same media.
    And those kinds of partnerships, I think, help us to extend 
the reach of our enthusiasm for arts education. Again, we can't 
be a bill payer, but we can help to pilot some things that I 
think can be important models. But I think everyone who cares 
about the relationship between arts and education right now 
needs to be particularly vigilant, because I think there are 
key decisions that need to be made between Congress and 
different agencies over the next few months.
    Mr. Dicks. I can think of a middle school in Tacoma where 
Dale Chihuly helped create a glass art program, and it has been 
highly acclaimed.
    Mr. Chairman, one kid was actually running away from a 
police officer and ran into this room and all of a sudden 
realized that something interesting was going on, and he 
started going to Dale. He got out of trouble, and it made a 
remarkable change in this person's life.
    Mr. Ivey. He actually became a working glass-blowing 
artist. It became a career path for that young man.
    Mr. Dicks. So I think if we give our young people an 
opportunity to do something positive, they will take advantage 
of it. We have got to try to do more, as you suggested, because 
the funding has been strained here so much.

                              NEA HISTORY

    You know, the other thing I would like to talk about 
generally, you were talking about the 35th anniversary of the 
time when these Endowments were created. And to think back 
about the small number of arts organizations, of symphonies, 
ballets, performing arts, all of the major institutions, and 
what has happened since that time over this 35-year period, how 
the arts have expanded throughout the country. It is kind of 
ironic at this point, when we are getting out to the 
underserved areas, this is when we haven't had enough money to 
really do the job we would have liked to do.

                      CHALLENGE GRANTS IN SEATTLE

    I can remember just in Seattle, when I first became a 
member of this committee, we got three major Challenge grants 
in 1976; and it had an enormous impact in terms of the money 
that we were able to raise in the private sector for three of 
the leading arts institutions, I think the Northwest Ballet, 
the Seattle Symphony, and one other--maybe it was the--it was 
one of the other institutions, I can't think of it right off 
the top. But it was three of them that got major Challenge 
grants, and it had an enormous positive impact.
    To me, it just is sad that we can't do as much here as I 
think we should do on behalf of the country.

                         CULTURAL ORGANIZATIONS

    Mr. Ivey. Mr. Dicks, you make an important point. I 
mentioned, I guess in a somewhat selfish way, the way the 
application load at the NEA has grown, and the way we have 
spread our resources by giving more grants but reducing the 
size of the grants. You point out the fact that the sector 
itself, just the total number of not-for-profit cultural 
organizations in the country, has grown enormously.
    I went back a couple weeks ago on another mission, really, 
just to go back to a time when the NEA had about the budget it 
has now. I think it was around $100 million in the mid-1980s. 
The number of cultural organizations in the United States has 
increased by a factor of 10 since we had a budget about like 
the one we have now back in the mid-1980s. So we are getting 
more requests for funds, and the overall sector that we are 
serving is much, much larger, so the picture is a very 
different one.
    Now, in some ways, I think that that is a sign of success. 
I mean, obviously, we have in this country a mixed system. 
Private funding remains the primary engine that drives our 
cultural not-for-profit organizations. And government in total, 
you know, is only about 10 percent of what is given to the not-
for-profit arts. But it is a very, very important part because 
we play a kind of leadership role, we provide a sense of 
continuity and permanence. And I think that the small tail of 
that big dog can, in fact, take some credit for the fact that 
we have the kind of cultural sector of the size that it is 
today and of the vitality that it is today. So I think we face 
some real challenges to try to address those needs.
    And you mentioned the Challenge grants. That is a program 
that actually was eliminated at the Arts Endowment when the 
agency was made smaller a few years back. And that was one of 
our main points of contact between the NEA and our major 
cultural institutions, the ballet companies, the opera 
companies, symphony orchestras, major museums and so on. It 
would be a good thing if somewhere down the road we could 
together find a way to move back into that kind of relationship 
with these big institutions.
    Mr. Dicks. Well, my time is expired, but let me make one 
observation. You mentioned partnerships. I think, personally, 
partnerships are very positive. And I am pleased to hear that 
both of the Endowments are working with other entities and the 
private sector. I think we have no choice under the 
circumstances but to do that.
    Thank you, Mr. Chairman.
    Mr. Skeen.  Thank you. Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman.
    Mr. Ivey, just some dogs-and-cat type questions.
    Mr. Skeen. Okay. You can sort them out.
    Mr. Kingston. We will let you sort them out.

                              NEA REFORMS

    The Supreme Court case of the woman who was dipped in 
chocolate. It had to do with the first amendment. Do you 
remember the name of that case?
    Mr. Ivey. It was referred to generally as the Finley case.
    Mr. Kingston. Now, was that in NEA? I don't remember if it 
was or not.
    Mr. Ivey. It involved the NEA. She wasn't actually dipped. 
But there was chocolate involved.
    Mr. Kingston. Whatever it was. Now, that was around 1996, I 
guess, or some time around there.
    Mr. Ivey. I think the issue really emerged around 1996. I 
can't tell you exactly when the----
    Mr. Kingston. And I would say there was maybe a 3- or 4-
year philosophical tug of war between the art community, in 
general, and public funding as being able to direct it even 
after the Finley case, but it seems to have died down somewhat. 
And I know that NEA has been a little more careful monitoring, 
you know, the watermelon woman type projects of the world, the 
groups that cause a little bit of a concern.
    Is that settled in your mind with the folks you deal with, 
or does it constantly come up? And the reason I ask that 
question is, people on the critical side of the ledger on that 
don't quite realize that the Supreme Court case changed the 
dynamic. And then politically I think the NEA has kind of said, 
look, we need to be a little more careful here. They don't seem 
to know that as much. You don't get the credit for the progress 
you have made, in their vision, in the direction you have moved 
in. But do you have critics on the other side saying something 
else?
    Mr. Ivey. That is a fascinating question. I appreciate the 
compliment implied in your sense that we don't get enough 
credit. I think the agency has changed significantly in the way 
it does its work, not so much out of a perception of political 
necessity, but a couple of really specific things happened.
    You know, there was a commission, John Brademas and Len 
Garment co-chaired it. Out of that commission came some very 
specific recommendations that that commission thought would 
help the NEA's process.
    And a couple of them that are important--one was that we 
get out of the business of regranting, which would be giving 
money to a not-for-profit and say you decide who gets the 
funding; and that we concentrate on projects rather than 
general operating support. And what that has done is allowed 
the agency and its panels to really know what it was that we 
were funding, so that if something that is challenging is 
supported by the Endowment, everybody down the line, from our 
panels to our National Council to me as Chairman, has a really 
good idea why that particular project was funded. I think that 
has had the effect of creating grants that I think were broadly 
successful, because so many different points of view were 
brought to bear in the process and we knew exactly what we were 
funding.
    So I think that there were some things that actually were 
changed about the way we do our work, and generally those have 
been helpful.

                                CRITICS

    The last part of your question: Are there observers or 
critics who would take the other side? I think there are some 
who feel that the Federal Government, because we represent a 
free society, has a special obligation to fund even the most 
aggressive artistic expressions that rely on first amendment 
rights.
    My position as chairman has been somewhere in the middle. I 
certainly am a strong advocate of the First Amendment rights of 
artists, but I try to take a practical view in understanding 
that from time to time, as in many other issues that the 
government faces, we are going to find occasions when there are 
some limitations on the breadth of what we can do.
    Mr. Kingston. Personally speaking, I think it is a 
wonderful debate.
    Mr. Ivey. I do, too.
    Mr. Kingston. I think it is a great ongoing debate. It is 
about the first amendment. It is about art. It is about 
funding. You have got all the good elements and all the great 
players that can bring emotional pizzazz to anything. But I 
just wonder how it is like on your side of the ledger, because 
I know what it is like in terms of the letters we receive. They 
are still kind of operating in 1997.
    Mr. Ivey. And I would certainly assure you, Mr. Kingston, 
that there are people who advocate for the expressive rights of 
artists who are just as eager to criticize the Endowment for 
doing too little as some others might be for asking us to do 
too much.
    I think the challenge we have now had, I think the first 
half of the decade of the 1990s, the kind of debate that 
generated more heat than light. And maybe over the next few 
years, there will be an opportunity to have a conversation that 
will be ultimately----
    Mr. Kingston. It is kind of interesting because I think 
both sides overblow--in one sense, overblow the substance of 
it. But in terms of the philosophy, it is a noble debate to 
have; it truly is.

                             GRANT TRACKING

    Now, let me ask you this. In terms of your 1,483 grants in 
over 300 congressional districts--several years ago it was 
100--but I know one of the ways that you weren't getting credit 
in being distributed well enough was the fact that you would 
give something to the New York museum of whatever, and they 
would actually regrant it or spend the money in rural Georgia 
or Alabama or whatever, and yet the money did have to go to New 
York City.
    Now, did you change the way you track it, or is it now 
actually going to recipients in those States--in those 
congressional districts, I mean?
    Mr. Ivey. There are two ways that we track our grant-making 
very closely. One would be, obviously, the direct grants. And 
the second area that we have begun to track just as 
aggressively we call indirect, which is exactly as you 
describe. A dance company or a theater in Boston or in St. 
Louis might be funded to get out and tour in rural areas. And 
so we can now track when that performance hits the underserved 
areas, so that if we talk with anyone interested in our work, 
we can present both the direct and the indirect.
    What we don't track specifically, although the information 
could be recovered, would be how the States, where the States 
invest the 40 percent of our grant-making money that is 
basically block granted.
    Mr. Kingston. But the move from over 300 districts from 100 
districts, that is not a change in definition.
    Mr. Ivey. No. In fact, the numbers that we are talking 
about there very specifically only track direct grants 
because----

                          SONGS OF THE CENTURY

    Mr. Kingston. Okay. Also on the hundred songs of the 
century.
    Mr. Ivey. 365.
    Mr. Kingston. 365. What was the purpose of that?
    Mr. Ivey. Well, it is really to--the primary purpose is to 
partner our Federal cultural agency with a sector of the 
entertainment community that owns a good bit of America's 
cultural heritage in order to make that heritage available to 
young people in a meaningful way.
    We live in a country in which a huge percentage of what we 
think of as our Nation's cultural heritage, films, television 
programs, radio programs, sound recordings, are simultaneously 
cultural heritage and corporate asset. And I think it is very 
important that the Federal agency come to these industries and 
say this is part of our Nation's cultural heritage. Let us find 
ways to make meaningful performances, meaningful parts of that 
heritage, available to young people in a way that makes sense 
to what goes on in the classroom.

                    COPYRIGHTS--SONGS OF THE CENTURY

    Mr. Kingston. Okay. Now, that is going to be available on-
line. Well, here is where I am going. What prevents somebody 
from downloading that and getting into a Napster situation?
    Mr. Ivey. Right. It is going to be available in two ways: 
streamed audio, which is not downloadable, so that it can be 
accessed and listened to but not downloaded. Then it is going 
to be available in a special CD--the partners are trying to 
find the way to fund it--but a compact disk that would go with 
the curricular materials to the classroom. In that case, all 
the royalties would be paid and everything would be licensed.
    Mr. Kingston. Don't royalties for records last about 20 
years?
    Mr. Ivey. They last the copyright on it, plus 50 years.
    Mr. Kingston. So if we are going back a century, what 
happens to something that is outside that?
    Mr. Ivey. We are at a point where some of the very, very 
earliest songs and recordings will be falling into the public 
domain. The most recent revision of copyright law, and I am not 
an expert in this, but I think that there was an attempt to 
bring into copyright coverage some material from the teens and 
twenties that would be close to falling out of a copyright. So 
those are now protected. But I believe when you go back into 
the late 19th century, some of those have become----
    Mr. Kingston. How big of a stumbling block has that been in 
terms of figuring out the right contracts?
    Mr. Ivey. I think that any entity in our society, Federal, 
State, private, not-for-profit, that wants to use the part of 
our Nation's cultural heritage that is owned as a corporate 
asset, historical recordings, really needs to partner with the 
industry that owns those copyrights; because, since RIAA was 
the Endowment's partner in Songs of the Century, they as an 
industry were able to cut through much of the red tape that 
would be involved in clearing the use of these recordings that 
were selected.
    But you have identified something that is a huge task to 
anyone who wants to complete an anthology of historical 
recordings or television programs or historical films.

                              ARTS FUNDING

    Mr. Kingston. All right. Also, 10 percent--I think you said 
something like 10 percent of the funding for nonprofit 
organizations involved in art is from the government.
    Mr. Ivey. That is taking all levels. You have got aboutan 
$11 to $12 billion sector that would be all of the money that is 
contributed to the not-for-profit arts. They also earn about another 
$700 or $800 million. But put that aside, the money that is given to 
the not-for-profit arts, about $12 or $13 billion, all of government is 
about 10 percent of that. And with the Federal, the smallest; State, 
the next largest; and municipalities, the largest.
    Mr. Kingston. Okay. Now, the $12 billion that is given, how 
is that given, corporately or individually, or both?
    Mr. Ivey. It is corporate, individual, and private 
foundations. Those three.
    Mr. Kingston. But then there is a subsidized tax write-off, 
a tax credit for an individual.
    Mr. Ivey. There could be. That is right, there could be. In 
the case of a corporation, it could be either as a charitable 
contribution; or in some cases as a business expense.
    Mr. Kingston. Do you know how much that is?
    Mr. Ivey. I don't.
    Mr. Kingston. And the reason why that is important is that 
we always hear, well, the NEA has the statement. And you always 
hear people say, well, this shows our values. Well, they always 
overlook, very conveniently, the tax credit. I mean, just think 
about it right now. We are trying to increase the tax credit 
for people giving to medical research, and I think there is 
legislation pending. And the critics are there, saying we can't 
afford it. But, you know, obviously the government is making a 
statement in support of the arts when we are having a tax 
credit for contributions to it.
    Mr. Ivey. I think that that is an important mechanism. It 
goes back to 1917. And it enshrines America's philanthropic 
spirit, which I think probably, you know, precedes the tax law 
that memorialized it.
    There is a great deal of interest right now around the 
world in the U.S. system of funding culture. You know, many 
European countries have had very unified centralized ministries 
of culture where everything was paid from the top down. There 
is a great deal of curiosity about the U.S. system because 
those ministries of culture are in many cases sort of 
staggering under the financial weight of paying the entire 
bill.
    And one thing that some nations are observing is that it is 
more than tax law, it is also the great tradition of giving 
which we have, in combination with some tax incentives. But 
that has been very important to the NEA because every grant we 
make is a matching grant. Our grants are all made to cultural 
not-for-profits. And those not-for-profits can turn to 
corporations or turn to individuals for a match in part; 
because they can say, if you come and match our NEA grant, you 
can deduct your contribution from your tax bill. And I think it 
has been very important to the health----
    Mr. Kingston. I think it is always worthwhile highlighting 
that. In addition, the Federal Government, State governments 
and local governments purchase art for Federal buildings, and 
in addition to that fund a tremendous amount of art education.

                             ARTS EDUCATION

    The study about children and students improving their 
grades, I do believe that that is the case. I would like to see 
the study because I have heard so many of these studies. The 
concern I have always had, just as it is also possible that 
somebody who picks up the cello or wants to learn water colors 
may also be, you know, a little bit more intellectually attuned 
to begin with. So, you know, I don't know how much art enhances 
versus how much art actually energizes the intellectual spirit, 
and I don't know that we will ever know that.
    Mr. Ivey. I think you have asked a good question. If you 
look at the studies, more than half of them are correlational 
studies. They show if students--they look at students who are 
doing better; they see arts as a correlation. And I think one 
of the challenges is, as has already happened in some areas, to 
move to a more aggressive kind of study, which people don't 
like in the field of education because you end up depriving 
young people. You say you can't have any art, so we can study 
what happens to the ones that have it. Parents often don't like 
those kinds of studies. But I think that kind of look, hard 
look at causation as well as correlation, is something that is 
already happening and we need to do more of it.
    Mr. Kingston. Well, you know, Mr. Chairman, one of the big 
things that kind of--this type study is a little bit more 
recent. Previous studies have talked about violence. And, to 
me, that is something that is absolutely there, as well as 
things like art rehabilitation and therapy, you know, from 
other illnesses and problems, physical or mental. And, you 
know, it is undeniable what an impact that has.
    Mr. Ivey. One of the most important partnerships that we 
have had over the years, occurred about 5 years ago, was a 
partnership with the Department of Justice for a relatively 
small program that looked at after-school arts programming for 
kids who were having trouble with authority. Some of them had 
already had contacts with the juvenile justice system. Some had 
been identified as problem kids with their schools.
    But what happened was they looked at kids who had arts 
programming and also at kids that didn't, who were in the same 
situation. And the Justice Department, our partner, invested in 
an independent study of the results, brought in acompany just 
to analyze it, and the arts kids did better across the board. It was a 
small study. It was in Portland, Oregon and San Antonio and the suburbs 
of Atlanta. And as small as the project was, it is one of the ones I 
come back to again and again when I talk about the value of the arts to 
young people because of the way it was studied.
    Mr. Kingston. I agree. I think that it is extremely 
significant and often overlooked. Thank you.
    Mr. Ivey. Thank you.
    Mr. Skeen. I want to thank all of you. It has been very 
absorbing.
    Mr. Ivey. Thank you, Mr. Chairman.
    Mr. Skeen. It is 1 o'clock, and it is time for us to get 
out of here.
    [Questions for the record follow:]
    [GRAPHIC] [TIFF OMITTED] T2391A.059
    
    [GRAPHIC] [TIFF OMITTED] T2391A.060
    
    [GRAPHIC] [TIFF OMITTED] T2391A.061
    
    [GRAPHIC] [TIFF OMITTED] T2391A.062
    
    [GRAPHIC] [TIFF OMITTED] T2391A.063
    
    [GRAPHIC] [TIFF OMITTED] T2391A.064
    
    [GRAPHIC] [TIFF OMITTED] T2391A.065
    
    [GRAPHIC] [TIFF OMITTED] T2391A.066
    
    [GRAPHIC] [TIFF OMITTED] T2391A.067
    
    [GRAPHIC] [TIFF OMITTED] T2391A.068
    
    [GRAPHIC] [TIFF OMITTED] T2391A.069
    
    [GRAPHIC] [TIFF OMITTED] T2391A.070
    
    [GRAPHIC] [TIFF OMITTED] T2391A.071
    
    [GRAPHIC] [TIFF OMITTED] T2391A.072
    
    [GRAPHIC] [TIFF OMITTED] T2391A.073
    
    [GRAPHIC] [TIFF OMITTED] T2391A.074
    
    [GRAPHIC] [TIFF OMITTED] T2391A.075
    
    [GRAPHIC] [TIFF OMITTED] T2391A.076
    
    [GRAPHIC] [TIFF OMITTED] T2391A.077
    
    [GRAPHIC] [TIFF OMITTED] T2391A.078
    
    [GRAPHIC] [TIFF OMITTED] T2391A.079
    
    [GRAPHIC] [TIFF OMITTED] T2391A.080
    
    [GRAPHIC] [TIFF OMITTED] T2391A.081
    
    [GRAPHIC] [TIFF OMITTED] T2391A.082
    
    [GRAPHIC] [TIFF OMITTED] T2391A.083
    
    [GRAPHIC] [TIFF OMITTED] T2391A.084
    
    [GRAPHIC] [TIFF OMITTED] T2391A.085
    
    [GRAPHIC] [TIFF OMITTED] T2391A.086
    
    [GRAPHIC] [TIFF OMITTED] T2391A.087
    
    [GRAPHIC] [TIFF OMITTED] T2391A.088
    
    [GRAPHIC] [TIFF OMITTED] T2391A.089
    
    [GRAPHIC] [TIFF OMITTED] T2391A.090
    
    [GRAPHIC] [TIFF OMITTED] T2391A.091
    
    [GRAPHIC] [TIFF OMITTED] T2391A.092
    
    [GRAPHIC] [TIFF OMITTED] T2391A.093
    
    [GRAPHIC] [TIFF OMITTED] T2391A.094
    
    [GRAPHIC] [TIFF OMITTED] T2391A.095
    
    [GRAPHIC] [TIFF OMITTED] T2391A.096
    
    [GRAPHIC] [TIFF OMITTED] T2391A.097
    
    [GRAPHIC] [TIFF OMITTED] T2391A.098
    
    [GRAPHIC] [TIFF OMITTED] T2391A.099
    
    [GRAPHIC] [TIFF OMITTED] T2391A.100
    
    [GRAPHIC] [TIFF OMITTED] T2391A.101
    
    [GRAPHIC] [TIFF OMITTED] T2391A.102
    
    [GRAPHIC] [TIFF OMITTED] T2391A.103
    
    [GRAPHIC] [TIFF OMITTED] T2391A.104
    
    [GRAPHIC] [TIFF OMITTED] T2391A.105
    
    [GRAPHIC] [TIFF OMITTED] T2391A.106
    
    [GRAPHIC] [TIFF OMITTED] T2391A.107
    
    [GRAPHIC] [TIFF OMITTED] T2391A.108
    
    [GRAPHIC] [TIFF OMITTED] T2391A.109
    
    [GRAPHIC] [TIFF OMITTED] T2391A.110
    
    [GRAPHIC] [TIFF OMITTED] T2391A.111
    
    [GRAPHIC] [TIFF OMITTED] T2391A.112
    
    [GRAPHIC] [TIFF OMITTED] T2391A.113
    
    [GRAPHIC] [TIFF OMITTED] T2391A.114
    
    [GRAPHIC] [TIFF OMITTED] T2391A.115
    
    [GRAPHIC] [TIFF OMITTED] T2391A.116
    
    [GRAPHIC] [TIFF OMITTED] T2391A.117
    
    [GRAPHIC] [TIFF OMITTED] T2391A.118
    
    [GRAPHIC] [TIFF OMITTED] T2391A.119
    
    [GRAPHIC] [TIFF OMITTED] T2391A.120
    
    [GRAPHIC] [TIFF OMITTED] T2391A.121
    
    [GRAPHIC] [TIFF OMITTED] T2391A.122
    
    [GRAPHIC] [TIFF OMITTED] T2391A.123
    
    [GRAPHIC] [TIFF OMITTED] T2391A.124
    
    [GRAPHIC] [TIFF OMITTED] T2391A.125
    
    [GRAPHIC] [TIFF OMITTED] T2391A.126
    
    [GRAPHIC] [TIFF OMITTED] T2391A.127
    
    [GRAPHIC] [TIFF OMITTED] T2391A.128
    
    [GRAPHIC] [TIFF OMITTED] T2391A.129
    
    [GRAPHIC] [TIFF OMITTED] T2391A.130
    
    [GRAPHIC] [TIFF OMITTED] T2391A.131
    
    [GRAPHIC] [TIFF OMITTED] T2391A.132
    
    [GRAPHIC] [TIFF OMITTED] T2391A.133
    
    [GRAPHIC] [TIFF OMITTED] T2391A.134
    
    [GRAPHIC] [TIFF OMITTED] T2391A.135
    
    [GRAPHIC] [TIFF OMITTED] T2391A.136
    
    [GRAPHIC] [TIFF OMITTED] T2391A.137
    
    [GRAPHIC] [TIFF OMITTED] T2391A.138
    
    [GRAPHIC] [TIFF OMITTED] T2391A.139
    
    [GRAPHIC] [TIFF OMITTED] T2391A.140
    
    [GRAPHIC] [TIFF OMITTED] T2391A.141
    
    [GRAPHIC] [TIFF OMITTED] T2391A.142
    
    [GRAPHIC] [TIFF OMITTED] T2391A.143
    
    [GRAPHIC] [TIFF OMITTED] T2391A.144
    
    [GRAPHIC] [TIFF OMITTED] T2391A.145
    
    [GRAPHIC] [TIFF OMITTED] T2391A.146
    
    [GRAPHIC] [TIFF OMITTED] T2391A.147
    
    [GRAPHIC] [TIFF OMITTED] T2391A.148
    
    [GRAPHIC] [TIFF OMITTED] T2391A.149
    
    [GRAPHIC] [TIFF OMITTED] T2391A.150
    
    [GRAPHIC] [TIFF OMITTED] T2391A.151
    
    [GRAPHIC] [TIFF OMITTED] T2391A.152
    
    [GRAPHIC] [TIFF OMITTED] T2391A.153
    
    [GRAPHIC] [TIFF OMITTED] T2391A.154
    
    [GRAPHIC] [TIFF OMITTED] T2391A.155
    
    [GRAPHIC] [TIFF OMITTED] T2391A.156
    
    [GRAPHIC] [TIFF OMITTED] T2391A.157
    
    [GRAPHIC] [TIFF OMITTED] T2391A.158
    
    [GRAPHIC] [TIFF OMITTED] T2391A.159
    
    [GRAPHIC] [TIFF OMITTED] T2391A.160
    
    [GRAPHIC] [TIFF OMITTED] T2391A.161
    
    [GRAPHIC] [TIFF OMITTED] T2391A.162
    
    [GRAPHIC] [TIFF OMITTED] T2391A.163
    
    [GRAPHIC] [TIFF OMITTED] T2391A.164
    
    [GRAPHIC] [TIFF OMITTED] T2391A.165
    
    [GRAPHIC] [TIFF OMITTED] T2391A.166
    
    [GRAPHIC] [TIFF OMITTED] T2391A.167
    
    [GRAPHIC] [TIFF OMITTED] T2391A.168
    
    [GRAPHIC] [TIFF OMITTED] T2391A.169
    
    [GRAPHIC] [TIFF OMITTED] T2391A.170
    
    [GRAPHIC] [TIFF OMITTED] T2391A.171
    
    [GRAPHIC] [TIFF OMITTED] T2391A.172
    
    [GRAPHIC] [TIFF OMITTED] T2391A.173
    
    [GRAPHIC] [TIFF OMITTED] T2391A.174
    
    [GRAPHIC] [TIFF OMITTED] T2391A.175
    
    [GRAPHIC] [TIFF OMITTED] T2391A.176
    
    [GRAPHIC] [TIFF OMITTED] T2391A.177
    
    [GRAPHIC] [TIFF OMITTED] T2391A.178
    
    [GRAPHIC] [TIFF OMITTED] T2391A.179
    
    [GRAPHIC] [TIFF OMITTED] T2391A.180
    
    [GRAPHIC] [TIFF OMITTED] T2391A.181
    
    [GRAPHIC] [TIFF OMITTED] T2391A.182
    
    [GRAPHIC] [TIFF OMITTED] T2391A.183
    
    [GRAPHIC] [TIFF OMITTED] T2391A.184
    
    [GRAPHIC] [TIFF OMITTED] T2391A.185
    
    [GRAPHIC] [TIFF OMITTED] T2391A.186
    
    [GRAPHIC] [TIFF OMITTED] T2391A.187
    
    [GRAPHIC] [TIFF OMITTED] T2391A.188
    
    [GRAPHIC] [TIFF OMITTED] T2391A.189
    
    [GRAPHIC] [TIFF OMITTED] T2391A.190
    
    [GRAPHIC] [TIFF OMITTED] T2391A.191
    
    [GRAPHIC] [TIFF OMITTED] T2391A.192
    
    [GRAPHIC] [TIFF OMITTED] T2391A.193
    
    [GRAPHIC] [TIFF OMITTED] T2391A.194
    
    [GRAPHIC] [TIFF OMITTED] T2391A.195
    
    [GRAPHIC] [TIFF OMITTED] T2391A.196
    
    [GRAPHIC] [TIFF OMITTED] T2391A.197
    
    [GRAPHIC] [TIFF OMITTED] T2391A.198
    
    [GRAPHIC] [TIFF OMITTED] T2391A.199
    
    [GRAPHIC] [TIFF OMITTED] T2391A.200
    
    [GRAPHIC] [TIFF OMITTED] T2391A.201
    
    [GRAPHIC] [TIFF OMITTED] T2391A.202
    
    [GRAPHIC] [TIFF OMITTED] T2391A.203
    
                                        Wednesday, April 4, 2001.  

                 NATIONAL ENDOWMENT FOR THE HUMANITIES

                                WITNESS

WILLIAM R. FERRIS, CHAIRMAN, NATIONAL ENDOWMENT FOR THE HUMANITIES

                            Opening Remarks

    Mr. Kolbe [presiding]. The subcommittee will come to order. 
I will substitute here for our distinguished Chairman who is 
probably on his way back from his votes. But we are delighted 
to have members of the subcommittee and also Dr. Ferris here 
with us this morning. And he will then be followed by Bill Ivey 
from the National Endowment for the Arts. We are hoping to get 
both of these done before the noon break, the Chairman says in 
his statement here. That may be a little optimistic, but we are 
certainly going to try to do so.
    We have a concern, I think we have always had a concern in 
this subcommittee, about the management of the agencies. We 
have tried to focus on that. Many of the other Members of 
Congress have focused on what they see as the political issues 
around these two agencies, both of which I think do a very good 
job. But we are going to focus on how the dollars are actually 
spent.
    So we are going to turn first to Dr. Ferris and the 
National Endowment for the Humanities. With the increasing 
emphasis that we have on education in this country, it is 
important that we understand from you what you see as the role 
of NEH in supporting and complementing teaching efforts and 
your efforts to reach out to more parts of the country.
    The President has asked for level funding for NEH of $120.5 
million. And in each of the past 2 years, you have received 
very small increases.
    Before I turn the Chair over to Mr. Skeen----
    Mr. Skeen. You have done a great job.
    Mr. Kolbe [continuing]. Let me ask the Ranking Member if he 
has an opening statement here.

                     Opening Statement of Mr. Dicks

    Mr. Dicks. Yes, I do, Mr. Chairman.
    Thank you, Mr. Chairman, for holding this hearing today for 
the National Endowment for the Arts and the National Endowment 
for the Humanities.
    With the budget arriving late this year, we have compressed 
our hearing schedule a great, great deal. I want to thank the 
Chairman for setting aside today so that we may hear from the 
Endowments. Although we will not receive the formal budget 
request from the administration until next week, we have been 
told that the President has requested level funding for both 
the NEA and the NEH in 2002.
    Recognizing that the Interior bill will be below last 
year's level, I suppose we should be pleased to see that the 
President has not proposed any reduction in these programs. I 
will, however, reiterate my past support of the substantial 
increases requested by the last administration to bring both of 
the Endowments up to the $150 million level.
    This hearing gives us a chance to discuss the arts and 
humanities as national priorities. It also gives us a chance to 
discuss the very positive efforts that Bill Ivey and Bill 
Ferris have undertaken to bring these programs to more of 
America.
    Today, both the NEA and the NEH reach a broader geographic 
and cultural segment of America under a more inclusive 
definition of the arts and the humanities. As the testimony 
this morning highlights, this definition goes beyond classical 
drama, music, and art, and beyond the classic elements of 
western literature and history. Because of the efforts of both 
Chairmen, I believe both agencies are more vibrant and more 
relevant to American society as we enter the 21st century.
    Mr. Chairman, I believe that last year we took a huge step 
in terms of funding the cultural agencies. During last year's 
debate on this bill, the House rejected an amendment to cut the 
NEA by 2 percent on a rollcall vote of 152 to 256. Then, for 
the first time since the cuts of the mid-1990s, Congress 
approved an increase for these cultural agencies. With that 
vote, I hope that we put to rest efforts to reject or weaken 
the Federal role in support of the arts and humanities.
    In my mind, this turnaround happened for two reasons. 
First, as I mentioned before, I think both agencies have 
aggressively moved to address some legitimate concerns about 
the role of the Endowments.
    Second, however, I also believe that the general public has 
sent a strong message to Congress that they support these 
programs. I want to make clear, however, Mr. Chairman, that 
stopping efforts to cut funding for the NEA and the NEH is not 
enough. Funding for the Endowments is still 40 percent below 
the levels in 1995. I hope that we can now move to restore 
funding to the levels of 1995 or, as a minimum, to the $150 
million level for each Endowment. That was our goal last year. 
It is our time to give them the resources they have earned and 
which they have demonstrated can be used effectively for the 
American people.
    And I think Mr. Obey has a statement that he would like to 
make at this time, Mr. Chairman.

                     Opening Statement of Mr. Obey

    Mr. Skeen [presiding]. So be it. Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman. I apologize for taking 
the time, but I have a meeting with the Speaker at 11:30 and 
won't be able to stay for the two hearings. But I simply wanted 
to make an observation. It appears to me that the name of the 
game has probably changed in the battle over these two 
agencies.
    In the past, we have seen efforts to really deeply cut the 
budget or eliminate the budget for them. It appears now to me 
that because of the public opinion backlash that created, that 
now the new name of the game seems to be to sort of slowly, 
over time, squeeze, not necessarily starve them out, but 
squeeze them out of the possibility of exploring new ways to 
make what these agencies are all about available to all 
Americans.
    And that means we are going to see budgets that try to hold 
the funding level. Perhaps through the process, token 
amendments to increase it by token amounts may be accepted. I 
hope in the end we do more than that.
    I would just like to share two impressions with the 
committee and with the two witnesses this morning. I think the 
single best writer in America today is a fellow by the name of 
Rick Bragg. He has written books that move me like I have been 
moved by no one since I read Jack London's prose many, many 
years ago.
    And just because I think this relates to the humanities and 
some of what is said here relates to the arts, I would just 
like to show you what I mean and show you what you can get and 
how you can be moved by some of these things.
    Bragg writes in his book All Over but the Shoutin', and he 
is a newspaper writer, ``I didn't get into this business to 
change the world, I just wanted to tell stories. But now and 
then, you can make people care, make people notice that 
something ain't quite right, and nudge them gently with the 
words to get off their ass and fix it. The fact is I did very 
few happy stories in Miami, and the vast majority didn't change 
a damn thing. I wrote about Castro selling relatives to Cuban 
Americans in Miami and the hopeless story of a man who had been 
choked into a coma by Miami police.
    ``Friends have told me I did too much of it, that I dwelled 
on it, that I should be careful not to let it build up inside 
me. One reporter, a friend, christened me the `misery writer.' 
But I've always been able to distance myself and dance between 
the raindrops.''
    You know, my friends know, I am into bluegrass. When Bill 
Monroe died, this is part of what he wrote:
    ``Dateline Rosine, Kentucky. The dirt has music in it. 
Stand here amid the rain-streaked headstones in the Rosine 
Cemetery as dusk steals through the hills and hollows of 
western Kentucky and turns the steel towers of drag lines into 
the skeletons of dinosaurs and the strip-mined coal fields into 
moonscapes, and listen to the dark.
    ``For years, people have passed this way and sworn that 
they could hear the faint sound of a single fiddle drifting 
over from Jerusalem Ridge; or was it Hells Neck or Doodlepus 
Hollow? It is just Uncle Pendleton Vandiver on his way to 
another barn dance, fiddling on muleback as he rides and rides 
and rides.
    ``Never mind that there's a headstone with his name on it 
sunk in the ground. He is the fiddler made famous in the song 
by Bill Monroe's legendary nephew.
    ``Now when the faint fiddling drifts through the night, 
some swear that they can hear the sweet distant sound of a 
mandolin joining in.
    ``Monroe played the mandolin. It's been almost 2 months 
since Mr. Monroe's death, since he joined his uncle in the 
ground here in Rosine Cemetery, and, if you believe such 
things, since his spirit joined his uncle's in the cool, crisp 
mountain air. If ghosts of bluegrass do walk the night on 
Earth, it must be here. Just as surely as the blues was born on 
the Mississippi Delta and a smoke-filled room in New Orleans 
gave birth to jazz, Rosine is the mother of bluegrass.''
    That to me is the kind of writing which we see so often and 
which if kids can be exposed to can, I think, stir their souls 
and make them think about lots of different things than the 
stuff they have thought before.
    Just one other observation. Friday night, some of us were 
at the Library of Congress. Jim Billington had a reception 
there, and we had members of the Kirov Ballet. The last part of 
the program was simply the dying swan from Swan Lake. And this 
ballerina came out in the most exquisite performance that I 
think any of us had ever seen, and I was sitting next to 
Zbigniew Brzezinski and I couldn't help but realize, as she was 
moving and fluttering, you can hear the audience collectively 
saying, ``mmm, mmm.'' It was so beautiful.
    And to me we have had very narrow, very mean-minded 
arguments about these agencies for years, but those arguments 
have forgotten that these agencies help people in this society 
who have the capacity to move our souls. And to me, that is why 
we need to rise above our past debates on both of these 
agencies and to really, I believe, provide an initiative that 
will enable them to expand their mission.
    And I simply want to take this time to thank you and to 
thank Bill Ivey for the work that you have done, because you 
have helped bring these agencies through two very--through some 
very tough times and I think put them on a stronger footing. 
And I hope, since I believe that you two have been up to the 
task, I hope that we are up to the task when the time comes, 
too.
    Thank you very much, Mr. Chairman, for the time.
    Mr. Skeen. We are very interested in your testimony. But in 
the interest of time and to be sure that the members have time 
for questions, we would appreciate it if you could summarize, 
and your full statement will be entered in the record.

                   Statement of Chairman Bill Ferris

    Mr. Ferris. Thank you, Mr. Chairman. I would request that 
my testimony be submitted for the record. I want to tell you 
personally how honored I am to be before your committee to 
present testimony in support of the administration's 
appropriation request.
    Mr. Skeen. We are the best one of the whole lot.
    Mr. Ferris. You are. You are my favorite. I never miss a 
chance.
    Mr. Skeen.  Thank you.
    Mr. Ferris. I look forward to working closely with you, 
Chairman Skeen, with Congressman Dicks, with individual members 
of this committee, and with committee staff in support of our 
request. I want to take this opportunity to congratulate you, 
Congressman Skeen, on your appointment as Chairman. I know that 
the committee is in fine hands now, and that you will carry on 
the impressive leadership tradition of Congressman Regula and 
Sid Yates.
    Mr. Skeen. It is a tough order, but thank you.
    Mr. Ferris. You are walking in good tradition here.
    Mr. Skeen. I just had my physical today. This will help me 
out, so I am here for another round.
    Mr. Ferris. Great. Well, we are proud you are here.
    The Endowment will support many outstanding projects for 
the American people with the funding we are requesting for the 
next fiscal year. We will work closely with the new 
administration and with Congress to continue our agency's 
efforts on behalf of the humanities.

                         REDISCOVERING AMERICA

    I want to pause for a moment to call your attention to the 
agency's 35 years of service to the American people. We 
recently published this beautiful book, Rediscovering America: 
Thirty-five Years of the National Endowment for the Humanities, 
which highlights the many NEH-supported books, museum 
exhibitions, seminars for teachers, and documentary films that 
we have provided our Nation's citizens and that have given them 
significant new opportunity to deepen their understanding of 
the humanities. And I would like to ask that this copy be given 
to the committee and to request that it be inserted in the 
hearing record.
    [Note.--Material is attached for the record.]
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2391A.204
    
    [GRAPHIC] [TIFF OMITTED] T2391A.205
    
    [GRAPHIC] [TIFF OMITTED] T2391A.206
    
    [GRAPHIC] [TIFF OMITTED] T2391A.207
    
    [GRAPHIC] [TIFF OMITTED] T2391A.208
    
    [GRAPHIC] [TIFF OMITTED] T2391A.209
    
    [GRAPHIC] [TIFF OMITTED] T2391A.210
    
    [GRAPHIC] [TIFF OMITTED] T2391A.211
    
    [GRAPHIC] [TIFF OMITTED] T2391A.212
    
    [GRAPHIC] [TIFF OMITTED] T2391A.213
    
    Mr. Ferris. Mr. Chairman, with your permission, I would 
like to speak informally about our work at NEH.
    Mr. Skeen. Done.
    Mr. Ferris. Instead of reading a lengthy written 
presentation, I simply want to describe 10 notable initiatives 
that we have developed over the past few years which are at the 
heart of our effort to enrich the life ofevery American through 
the humanities.

                      REGIONAL HUMANITIES CENTERS

    The first initiative is our creation of 10 regional 
humanities centers to explore America's distinctive regional 
cultures. Using monies raised largely from private gifts, 
planning grants of $50,000 are in place at two universities in 
each of the 10 regions. Later this year, we will fund Challenge 
grants at one institution in each region.
    This is a public/private collaboration, and each center 
will raise $3 for every dollar provided by NEH. The initiative 
will leverage $180 million from private sources to match $20 
million from Congress. I am proud to say that last month NEH 
received $2.5 million from the Knight Foundation, the largest 
private gift in our agency's 35-year history, to help fund 
these centers.
    Secondly, we are creating on-line encyclopedias on the 
history and culture of every State, territory, and the District 
of Columbia. These encyclopedias will be invaluable resources 
for education, cultural development, economic development, and 
cultural tourism. We are funding the encyclopedias through the 
State humanities councils, and councils in Ohio, Minnesota, and 
Virginia were included among the 17 planning grants that were 
awarded last week. Many other councils will submit proposals 
for planning grants at our July deadline.

                               LIBRARIES

    Another important initiative is for our Nation's libraries. 
In honor of National Library Week, First Lady Laura Bush 
recently described libraries as ``palaces of the people.'' With 
a $1 million gift from the Carnegie Corporation of New York, 
NEH has formed a partnership with the Library of America and 
the American Library Association to launch our Millennium 
Libraries Project. The project will allow 800 public libraries 
to receive the 50 most recent volumes published by the Library 
of America and will also support public programs at each 
library related to the volumes.
    This is an example of the quality and the beauty of these 
Library of America volumes. This particular one is the writings 
of George Washington.
    [Editor's note.--Mr. Ferris displayed a copy of a book.]
    Mr. Ferris. As a part of this grant-making program, NEH 
launched its first on-line application process, and we will use 
it as a model to create on-line applications for our entire 
agency over the next 2 years. Nearly three hundred libraries 
were funded last week for this project, including the Eunice 
Public Library and the Bosque Farms Public Library in New 
Mexico; the Jenkins County Memorial Library in Sylvania, 
Georgia; the Ohoopee Regional Library System in Vidalia, 
Georgia; the Caviglia-Arivaca Library in Tucson, Arizona; and 
the Spencer Library in Spencer, New York. An additional 500 
libraries will be given similar grants in July.
    Our fourth partnerships initiative is the development of 
partnerships with the Federal and nonFederal organizations, 
including America's Promise, the American Library Association, 
and the National Park Service.
    In 1999, NEH created a partnership with General Colin 
Powell and his nonprofit organization, America's Promise, to 
provide humanities programs for our Nation's disadvantaged 
young people. Our newest initiative is the development of 
content-rich activities in the humanities that will be used in 
after-school programs.
    As I have mentioned, in the year 2000, we also partnered 
with the American Library Association to create our Millennium 
Libraries Initiative. And our partnership with the National 
Park Service allows park historians to study at NEH summer 
seminars for college teachers. And we have also installed a 
major exhibition at Mount Rushmore National Memorial in South 
Dakota.

                             FAMILY HISTORY

    Fifth, our ``My History is America's History'' project 
encourages every American to explore their family history. 
Launched in 1999 with a cover story in Parade magazine, two 
copies of our guidebook are now in every library in the Nation. 
The book can also be downloaded from our Website at 
myhistory.org. And we are working with teachers to encourage 
the use of family history in the classroom.
    Sixth, and especially important to me, is that as a result 
of our efforts to build bipartisan support in Congress, the NEH 
budget has grown by $10 million over the past 2 years. Through 
this increase, legislators have demonstrated their support for 
our agency's work.

                          GRANTS AND PROGRAMS

    A seventh initiative has been to combine 17 sets of 
guidelines and an agency overview into one book, thus saving 2 
million pages. This one book contains all of the information 
about our programs, and it can be downloaded from our Website 
at neh.gov, making it significantly easier to apply for NEH 
grants. Now potential applicants to NEH, whether they are 
seasoned grantees or first-timers, can quickly find the grant 
programs best suited to their needs.
    The publication of this single volume guide represents a 
significant savings to taxpayers because some 2 million pages 
of redundant printing have been eliminated.

                    WORLD WIDE WEB AND THE INTERNET

    Our eighth initiative, and it is of growing importance to 
all of us here today, is the use of digital information 
technology and the World Wide Web to provide greater access to 
humanities resources. NEH's award-winning portal to the World 
Wide Web, EDSITEment, provides teachers, students and parents 
with access to 105 of the finest humanities Websites on the 
Internet. This project was funded exclusively with about $1.7 
million to date by the WorldCom Foundation.
    Our Schools for a New Millennium program is integrating new 
electronic humanities materials into the classrooms. As 
Chairman Skeen well understands, one ofthe grants that we 
recently made through this program was to the Pueblo of Laguna Middle 
School in Laguna, New Mexico. This grant supports the study of Laguna 
culture, language, and history as well as comparative world mythology.
    This past October, NEH placed a comprehensive directory of 
all of our programs and applications on our Website, allowing 
far greater public access to our programs.
    And through a partnership with the Corporation for Public 
Broadcasting, we are now making Digital Parallel Production 
Grants to encourage filmmakers to integrate digital resources 
with television programs in the humanities.
    There is an example of this work in the recent television 
production on Abraham Lincoln and Mary Lincoln. So viewers not 
only can enjoy the film, but they can go far more deeply into 
the subject through the Internet.
    This past year, we awarded a special grant to the Savannah 
College of Art and Design to support ``Virtual Historic 
Savannah.'' This project uses digital technology to document 
Savannah's historic district through a Website that allows 
visitors to travel through a virtual Savannah in any given 
year, from the founding of the city to the present, and to 
access topics such as slavery, the military, religion, and 
maritime history. We view this project as a national model and 
hope to see similar initiatives in other cities around the 
nation.
    As NEH's on-line encyclopedias are completed, every State's 
rich history and culture will be available to everyone at the 
click of a mouse.

                         REDISCOVERING AMERICA

    Ninth, our ``Rediscovering America'' initiatives are 
encouraging the appreciation of American history and culture. 
Over the next 5 years, NEH-supported regional centers will 
create significant new resources on our Nation's rich regional 
history and culture.
    Through ``My History is America's History,'' all Americans 
today can explore both their family history and the history of 
our Nation.
    Our new initiative to catalog, preserve, and provide access 
to historic sound recordings will increasingly preserve these 
recordings for future generations.

                      STATE AND LOCAL INSTITUTIONS

    And, finally, we have championed greater NEH support for 
State and local institutions.
    Humanities councils in all 50 States, five territories, and 
the District of Columbia have been encouraged to apply for for 
our on-line encyclopedia initiative.
    For the last 2 years, humanities councils in 14 States and 
Puerto Rico have received special funding under NEH's 
``Extending the Reach'' initiative to expand access to our 
agency's grant programs. Funding for all of the State councils 
has increased over the past 2 years as a direct result of NEH's 
larger budgets. And each of our 10 regional humanities centers 
will work closely with the five States in their regions.
    When I first appeared before this committee 3 short years 
ago, I expressed my hope that the ``humanities'' might one day 
become a household word for all Americans. It was my hope that 
every American might learn about the important work of the 
Endowment and that they would be better off for having this 
great agency working on their behalf.
    We have made significant progress in pursuit of these 
goals. I am especially proud that there is now strong 
bipartisan support for NEH on Capitol Hill and among the 
American people. By approving our budget request for fiscal 
year 2002, you will make it possible for us to continue our 
efforts to bring the benefits of NEH to millions of Americans.
    In closing, I would like to quote from Stephen Ambrose's 
introduction to our Rediscovering America: ``For myself, I 
can't imagine living in America without NEH. The proper study 
of mankind is man. The National Endowment for the Humanities 
makes that study possible.''
    I ask your assistance as we continue this very important 
work. Thank you, sir.
    Mr. Skeen. Thank you, Doctor.
    [The written statement of Mr. Ferris follows:]
    [GRAPHIC] [TIFF OMITTED] T2391A.214
    
    [GRAPHIC] [TIFF OMITTED] T2391A.215
    
    [GRAPHIC] [TIFF OMITTED] T2391A.216
    
    [GRAPHIC] [TIFF OMITTED] T2391A.217
    
    [GRAPHIC] [TIFF OMITTED] T2391A.218
    
    [GRAPHIC] [TIFF OMITTED] T2391A.219
    
    [GRAPHIC] [TIFF OMITTED] T2391A.220
    
    [GRAPHIC] [TIFF OMITTED] T2391A.221
    
    Mr. Skeen. Mr. Kolbe.
    Mr. Kolbe. No questions, Mr. Chairman.
    Mr. Skeen. Mr. Dicks.

                      HELPING HUMANITIES TEACHERS

    Mr. Dicks. Dr. Ferris, I want to compliment you on your 
statement and particularly on the good work of the National 
Endowment for the Humanities. And as I mentioned, I for one 
think that I would like to see us do more for both of the 
National Endowments, because I think you utilize the money very 
effectively, and I think it benefits the American people and it 
also helps in our educational system.
    One of the things you mentioned in your statement is the 
impact that the grants can have in helping our teachers. Could 
you tell us more about that?
    Mr. Ferris. Teaching is the heart of what we do, Mr. Dicks. 
It is where all of us start. None of us would be in this room 
without great teachers who gave us the vision and support to 
make what we have made of our lives. We are helping teachers at 
all levels--from K through 12 to colleges and universities--
with special programs.
    We are using technology in a significant way to deliver 
humanities programs to classroom teachers at every level, in 
every part of the Nation. This is particularly important in 
rural America and in inner-city schools where the resources are 
limited, where there are no museums and major libraries.
    Now those communities and their classrooms can visit the 
websites of the Library of Congress, the Smithsonian, and NEH 
and have on-line access to rich educational programs. And, 
increasingly, they will access their own State's legacy through 
the NEH-supported on-line encyclopedias. We are partnering with 
public and private organizations at every level, both in and 
outside the classroom, with education as the core of what we do 
at our agency.

                       USES OF INCREASED FUNDING

    Mr. Dicks. Now, this year the new administration has said 
that they want to keep the funding for the Endowments at last 
year's level. And, of course, last year we had a modest 
increase. If Congress in its wisdom decided to increase this 
budget, what would be your top priorities? What would be the 
things you would do if we had an additional $5 million, $10 
million for the Endowment?
    Mr. Ferris. Well, first of all, we would thank Congress, 
and then we would move that support throughout the agency. I 
would remind my distinguished colleagues here that we can only 
fund roughly one-half of the highly recommended projects that 
should be funded within our agency. This is denying support for 
classroom teachers, for librarians, for scholars who are moving 
new research forward that will in a decade or two be redefining 
classroom teaching of American history--how well we understand 
George Washington and Martin Luther King, for example. NEH-
supported scholarship, a decade or so later, becomes part of 
the everyday curriculum of school children throughout the 
Nation, and NEH helps that to happen too.
    Mr. Dicks. You mentioned the use of the Internet and the 
various topics that are covered in the area of the humanities 
on the Internet. What kind of utilization do they get? Do you 
know? Do you have any idea?

                EXPANDING ACCESS VIA DIGITAL TECHNOLOGY

    Mr. Ferris. Yes, I can provide the figures for you. With 
our EDSITEment program, I can tell you it is a steadily growing 
usage. On Sunday night, there is a spike of usage, as teachers 
are preparing for the classroom Monday morning, they are going 
on-line and developing their curriculum and students in 
preparing for their courses are also using the the EDSITEment 
site.
    The central issue to the future of humanities, to my mind, 
is access. And thankfully, the Internet allows very inexpensive 
access to massive humanities resources. So we are stretching 
every penny you give us to the limit, and we are harnessing 
this technology in ways that are going to make our Nation far 
richer in the future.
    Mr. Dicks. And it gets access to children in ways that you 
just couldn't conceive of 10 years ago.
    Mr. Ferris. And the children are more comfortable with it 
than their teachers. Part of our problem is teaching the 
teachers, not only the subject areas and the content that they 
use, but also making them comfortable with use of the Internet 
within the class. These are two significant needs that our 
Nation increasingly will face as it has growing teacher 
shortages and teachers who are inadequately trained to teach 
the subjects that they are teaching. And NEH has worked in this 
area with significant support for model programs that we hope 
to expand in the future.
    Mr. Dicks. Well, again, I want to thank you for your 
efforts. I think you have done a tremendous job at the 
Endowment for the Humanities. I congratulate you on your good 
work.
    Mr. Ferris. Thank you.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Skeen. He said it just exactly right. We owe you a 
great debt because you have done this the right way. Now all we 
can do is keep funding it.
    Mr. Hinchey.

                         Remarks of Mr. Hinchey

    Mr. Hinchey. Thank you very much, Mr. Chairman. And thank 
you, Mr. Ferris, for your testimony and for your service 
heading up the National Endowment for the Humanities.
    Frankly, when President Clinton appointed you to that 
position, there were some people who were a bit skeptical about 
how you would approach this task. Some of them thought that you 
would bring a bit too much Dogpatch and not enough 
sophistication to the National Endowment for the Humanities. 
But how wrong they were.
    Mr. Ferris. Thank you.
    Mr. Hinchey. You have done just a terrific job. And I think 
that among the many achievements that will go down for you in 
your tenure, which I hope lasts a long time, will be the way 
that you have been able to blend in all of the myriad aspects 
of American culture. And I guess it is probably your training 
as an anthropologist that has enabled you to be so insightful 
about so much of American culture and the way you have been 
able to blend it in and make it meaningful for many, many 
people around the country who haven't had an opportunity to be 
exposed to much of it before.
    I am particularly interested in your 10 regional centers 
and your attempt to protect and preserve the shrinking aspects 
of American culture and its regional diversity. I think that 
what we have seen over the course of our lifetime is the 
homogenization of American culture. And any efforts to protect 
and preserve the regional differences that remain is something 
that we ought to encourage as much as possible.
    How far along are you in that, and what are you doing 
exactly, and what do you anticipate in the immediate future in 
that regard?

                      REGIONAL HUMANITIES CENTERS

    Mr. Ferris. Well, these planning grants are moving forward 
very briskly. And this is a new vision of a university, which, 
rather than closing itself within an ivory tower, is reaching 
out to an infrastructure of education and cultural institutions 
throughout a five-State area. And that's just what they are 
doing. They are meeting with community colleagues, with 
religious groups, with civic groups, and they are creating a 
new coalition. These are groups that normally don't speak to 
each other. They talk within their particular fields. And many 
hands make light work.
    Together they are going to bore down and understand far 
more deeply the history of each region, of families, of 
communities, and it will add a whole new element of education 
and culture that our Nation desperately needs. Because as you 
point out, the homogenization of America is moving forward at 
an increasing rate, and if we don't take these steps, we are in 
danger of losing our memory of who we are as a people.

                              ORAL HISTORY

    Mr. Hinchey. Exactly. Are you doing much with oral history 
recordings?
    Mr. Ferris. We are. Oral history recordings are very 
important. As a folklorist, I often tell my students the 
African proverb that ``When an old man or woman dies, a library 
burns to the ground.'' I think that underscores the urgency of 
recording oral tradition. Books are wonderful, our libraries 
are rich repositories of knowledge, but they complement and 
certainly do not replace the voice of your parents and 
grandparents, of elders in the community describing their 
memory of World War II or the Great Depression. We are in 
danger of losing these living libraries if we don't use oral 
history in ways that the regional centers will be a significant 
force for.
    Mr. Hinchey. Are you working with universities in that 
regard as well?
    Mr. Ferris. These are all university-based institutions, 
and they are essentially building on outstanding programs that 
are already in place. Some of these have been studying their 
regions for decades. So we are simply going to allow them to 
raise--Alex Haley used to use the phrase: ``Find the good and 
praise it.''--and that's what we have done. We have found 
outstanding programs in each region, and we are helping them 
leverage significant private dollars to match what will be 
significant congressional support as well. So it is a strong 
public/private partnership that will redefine the intellectual 
and cultural landscape of America.

                      ENCOURAGING PRIVATE SUPPORT

    Mr. Hinchey. And I notice that some of the most creative 
things you are doing, some of the most interesting in some 
ways, come about as a result of private funding.
    Mr. Ferris. Absolutely. I have been involved in fund-
raising all my career as a folklorist. And I didn't expect that 
to be part of my job when I came here, but I am happy to assume 
that role, because to do good work we need private sector 
support. And I think it is a wonderful partnership because 
congressional leaders feel good when they can see the WorldCom 
Foundation and the Knight Foundation. Many of these major 
players who are significantly invested in our Nation's culture 
and our history and our future want to partner with Congress 
and feel that we have a common vision, and the humanities are 
the core of that vision.
    Mr. Hinchey. Does the private funding in any way compromise 
what you would like to do? Does it impede your creativity or 
limit your freedom in any respects? Have you found that to be 
true in any case?
    Mr. Ferris. Not at all. We really find that, in some ways, 
we learn from the corporate and private sector because their 
knowledge of communications and technology is often far more 
sophisticated than what we have been doing. So when you deal 
with a firm like WorldCom--they are hosting the Website for 
EDSITEment--they are, in fact, printing out the beautiful 
publications, posters, and helping move these into the 
classroom. So it is a perfect partnership, and we could not 
begin to do what we are doing with that Website and its teacher 
programs without their involvement, not only in giving dollars 
but in helping with their technology knowledge as well.
    Mr. Hinchey. Well, I just want to once again thank you for 
the job that you have done. I think that the Nation owes a debt 
of gratitude to you, to Mr. Ivey, and to yourpredecessors----
    Mr. Ferris. Thank you.

                                FUNDING

    Mr. Hinchey [continuing]. In each and every case for the 
excellent work that you have done at NEH and at NEA in 
protecting and preserving American culture and giving young 
people the opportunity to participate in it in more meaningful 
ways.
    Now, there are some agencies that are funded by this 
government that waste more money than you are given in your 
entire budget. And I think that the level of funding, frankly, 
is a bit of a disgrace to America, that we haven't recognized 
the real value of NEA and NEH. No matter what anybody says, the 
way we recognize value in this country is by the way we fund 
it, the way we pay attention to it, the way we apply resources 
to it.
    And I hope that this Congress will increasingly recognize 
the value in doing that, and we will be able to increase your 
budget, because I know that the return will be much greater for 
all of the people that we represent in our constituencies 
across the country. I thank you very much.
    Mr. Ferris. Thank you, sir. I would just like, in response 
to your final point, to say that as part of our 35th 
anniversary, we are honoring all of our former chairs, all of 
our congressional leaders, current and former, and all of our 
awardees and speakers who have been part of our legacy. In 
June, there will be a special ceremony at the Library of 
Congress, and you will all be included in that as a way of 
looking back on 35 years of extraordinary work. And this book 
represents and reflects that.
    We also have four working papers that include a timeline 
that shows, under each of the Chairs of NEH, very significant 
work has gone on. Under each of the Presidential and 
Congressional leadership, this work has been there for the 
American people. This timeline is on our Website. This event is 
going to be an elegant historic moment for all of us, and we 
hope all of you can join us.
    Mr. Skeen.  We would like to be there, and we think you are 
doing a fine job.
    Mr. Moran.

                         Statement of Mr. Moran

    Mr. Moran. Thank you, Mr. Chairman.
    Chairman Ferris, nice to see you, and thank you for the 
opportunities you have presented for the Members of Congress 
and to the Washington area to enjoy the humanities productions 
that you have contributed to and put together.
    The Pentagon has certainly figured out that by putting a 
defense contractor or a depot or a weapons manufacturer or 
something in every single district in the country, that they 
are pretty well insured from any budget-cutting measures. And 
obviously it has worked. That is one of the reasons certainly 
that the defense budget is more than all the other nondefense 
domestic discretionary programs combined.
    But in respect to NEH and NEA, too, for that matter, you 
have had the same pressure to do something in virtually every 
district in the country. The problem is that the money is not 
sufficient to take advantage of that to a great degree, and I 
am concerned that you are really spreading yourself thin.
    We look at the macrobudget. But in looking at the 
individual projects, I can't imagine but that they are not 
forced to be even less each year, particularly given inflation, 
than they have in the past.
    And so while you may give some money to meritorious 
projects, you are not given a whole lot of money, and it may 
not be enough to fully exploit the artistic excellence that you 
have identified.
    And so I would like for you to address what it has meant to 
try to meet this congressional demand for what we would call 
``equitability'' among all the parts of the country. But it is 
really spreading you much thinner than had been the case before 
this pressure. Can you address that? What are your individual 
project grant levels?

                             world history

    Mr. Ferris. Yes, sir. I think, in many ways, we can have 
our cake and eat it, too, because of technology. We can invest, 
say, half a million dollars to build a major Website, for 
example. We have invested about $300,000 to create a new 
Website on world history. World history is being mandated in 
schools across the Nation, but very few teachers are trained in 
it. So we are going to spend what for us is a significant 
investment to create this Website. But once it is created, it 
is available at every classroom in the Nation.
    Mr. Moran. What is that Website?
    Mr. Ferris. It is not done yet. It is being put together. 
But we will send you the details on it. This is a special 
initiative to address a deep need. And one of our working 
groups within the agency looking at international programs 
pointed out that access to excellent curricular materials on 
world history was a critical need in classrooms. We responded 
by vetting a variety of proposals and choosing what we felt was 
the best one. Now, that is an example of how selective 
investment in one project, a model project through the 
Internet, will be shared with every classroom.

                            PRIVATE FUNDING

    The NEH Millennium Libraries Program, which is going to 
reach out to 800 libraries, did not use a single Federal 
dollar. It is essentially funded entirely from the Carnegie 
Corporation. And as I said earlier, I am very comfortable with 
raising private support. Through our Enterprise Office, we are 
making increasingly encouraging calls on corporate leaders, 
private foundations, and individual donors. I think it is safe 
to say that, over the next few months, we will see additional 
gifts from the private sector.
    So, obviously, we can't fund every project in every place, 
but what we are doing is, through technology with on-line 
encyclopedias, through regional centers in each region, and 
through Websites, we are making the humanities accessible to 
everyone who has access to a computer, and that is a 
significant and growing number of Americans.
    Mr. Moran. You say you only fund half of the highly 
recommended projects that are requested. I think it would be 
useful to get a sampling of some of those projects that are not 
funded due to budgetary constraints.
    Mr. Ferris. We would be happy to do that. And they exist in 
every division. I mean, that's one of the sad parts of my job, 
is seeing highly qualified projects that are not funded, or 
underfunded, simply because of our budget restrictions.
    Mr. Moran. Thank you, Dr. Ferris.
    Mr. Ferris. Thank you, sir.
    Mr. Moran. Thanks, Mr. Chairman.
    Mr. Skeen. Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman.
    Let me ask you a couple of questions. You didn't mention 
your Character Education program. How is that going? I know you 
had time constraints, but what is happening with it?
    Mr. Ferris. I will have to get you more detail on that. I 
don't have information at hand, but I will be happy to share 
that with you. I don't think we have that in the materials that 
we brought.
    [The information follows:]

                 Georgia Center for Character Education

    The Georgia Center for Character Education is a project of 
the Georgia Humanities Council in partnership with the Georgia 
Department of Education, with additional financial support from 
the Georgia Power Foundation. The Center serves as a resource 
to assist educators, school boards, school personnel, 
organizations, policy makers, parents, and communities in 
meeting the General Assembly's mandate for character education. 
The humanities are at the heart of the Center's work because 
they provide the historical and intellectual context for 
character education: they record the stories of people and 
societies throughout time, they have the power to engage the 
imagination, and they have the capacity to evoke understanding 
of the lives and experiences of others.
    The Center collects and disseminates information on 
character education concepts, resources, and practices. It also 
welcomes partnerships with organizations and agencies in 
developing materials for Georgia educators. For example, 
working with PeachStar Educational Services of Georgia Public 
Broadcasting, the Center is producing teacher training videos 
featuring best practices in character education. The Center is 
also collaborating with Georgia Learning Connections in 
producing lesson plans for dissemination on a website. Through 
its Teacher Associates Program, the Center employs teachers on 
a project basis to consult with staff and develop resources for 
use by classroom teachers.
    Because the Center recommends a comprehensive approach to 
character education, and because it recognizes that there is no 
single ``one size fits all'' approach for every community, it 
does not endorse any specific products, vendors, or agencies. 
Recognizing, however, that communities may with to explore 
approaches based on specific curriculum products and other 
strategies, the Center maintains a broadly representative 
collection of books, articles, vendor-produced materials, 
information about programs currently in use in Georgia, and 
model lesson plans developed by Georgia educators.

    Mr. Kingston. Okay. One reason I brought that up is for the 
committee to realize that some of the leveraging that you do is 
not just in terms of a private dollar match, but it is in terms 
of volunteer man-hours.
    Mr. Ferris. Yes.

                          DISPERSAL OF FUNDING

    Mr. Kingston. And I know in that case that you do use lots 
of volunteers that get involved in it. But I would kind of like 
to know what is happening with that.
    One of the situations which the NEH gets into is, even 
though there is a lot more you can do, there is a lot that also 
is done through State educational facilities, private industry 
private universities and so forth. I think it is always 
important to point out that while you are not able to do 
everything, there still is somebody in there doing some of 
these good things.
    What is the approximate breakdown of your 120 million in 
terms of the allocation? Are there 3 categories, 10 categories, 
of major spending?
    Mr. Ferris. Well, we have 5 grant-making divisions. We have 
our Challenge Grants Office, for example, which leverages 
either 3 to 1 or 4 to 1 matches, usually to build an 
infrastructure, whether it is renovation of a historic building 
or to create an endowment for a professorship.
    Then we have our Education Programs Division, which funds 
classroom teaching and educational Websites. Our Preservation 
and Access Division helps preserve endangered collections and 
make them accessible to the public increasingly through the 
Internet.
    Our Research Programs Division funds individual scholars to 
do seminal research in the humanities. That is really very 
significant. Many of the books produced by these scholars later 
win Pulitzer Prizes. I will submit for the record a list of all 
the awards that have been won in this past year. There were 
also 150 books that came to us this past year from scholars 
supported by our Research Division.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2391A.222
    
    [GRAPHIC] [TIFF OMITTED] T2391A.223
    
    [GRAPHIC] [TIFF OMITTED] T2391A.224
    
    Mr. Ferris. And our Federal-State partnership office works 
with the State humanities councils. I am especially interested 
in these State councils. We are moving model projects like our 
on-line encyclopedias forward to assist the state councils in 
special ways. So there are many facets to how the humanities 
operate. Our Public Programs Division also funds projects like 
the recent Ken Burns series on ``Jazz.''

                     LEVERAGING NONFEDERAL SUPPORT

    Mr. Kingston. If you can give me, and I don't need it 
today, but maybe a breakdown of just the approximate, where the 
money goes and what the leverage for each category is, because 
some of it is leveraged, some of it isn't.
    Mr. Ferris. I can give you that right now. Federal-State 
partnership is $30 million. You have what I have.
    Mr. Kingston. Now I have it. And this is what I was looking 
for, although I don't see quite--let us, just on the education 
programs, what is the leverage on that? Where is that?
    Mr. Ferris. Well, leveraging in some cases for education 
programs comes from the Challenge grant program which 
essentially gives Challenge grants to institutions that are 
trying to create new or increased third-party support, either 
at secondary schools or the college level. But grants in our 
Education programs also include matching support, either in 
dollars or in-kind support. For example, the Laguna Pueblo 
Schools for the New Millennium grant requires cost-sharing from 
the grantee.
    Another of our grants in our schools for a New Millennium 
Program is a World War II project at the Hogg Middle School in 
Houston, Texas. This is a beautiful publication that was 
produced by these kids down in Houston that was funded in part 
by NEH, by Rice University's Center for Technology in Teaching 
and Learning. In their case, they are partnered with Rice 
University. So, depending on the grant, there is always 
leveraging support that flows for that.
    Mr. Kingston. Well, when you are making a grant decision, 
don't you consider the leverage?
    Mr. Ferris. We do consider that. There are many pieces: the 
qualifications of the people involved; obviously, the ability 
to realize the project.
    The ``Virtual Savannah'' project in Savannah, Georgia, for 
example, is a very innovative project. We have not seen this 
kind of project before where you are using digital technology 
to virtually walk the streets of Savannah from the colonial 
period to the present. That project required a special mix of 
scholarship, of technology, and of delivery. We are looking at 
this as a model project to use as a way of creating similar 
projects in other cities.
    Mr. Kingston. Does the Savannah College of Art Design match 
on that?
    Mr. Ferris. They will provide cost-sharing. And I have 
herenow for the current year, $517 million of matching funds available 
within the education division.
    Mr. Kingston. $517 million?
    Mr. Ferris. $293,000. I am sorry.
    Mr. Kingston. I may have misunderstood you.
    Mr. Ferris. No, you understood me right. I was mistaken.
    Mr. Kingston. I was going to say it is a pretty good 
program.
    Mr. Ferris. That is dreaming.
    Mr. Kingston. But that is what I am doing. I am trying to 
get an idea of, moving along with that, where you obviously 
want to go is to the areas that have the most matching dollars, 
or 2 for 1, or whatever it is. But then, you know, in that 
process, you would also want to make sure you are not ignoring 
the ones that are unable to do that. And you know, in that 
vein, that is what I was kind of moving towards.
    Now, when you are deciding who gets money, I know that you 
have been criticized for being a little more political than 
other folks. Now, I certainly understand that politics can't be 
removed from politics. And a political organization, if not for 
your nimble ability to get around Washington, D.C., the NEH 
probably would have been cut $7 million or more than that. And 
so I don't--I just kind of want to go on record--I certainly 
don't fault any--you know, I think somebody in your leadership 
position is damned if he does and damned if he doesn't. And I 
think that your investment in the political side of the 
equation has helped NEH survive a lot of its criticism.
    And you know, we have to understand, and I think Mr. Dicks 
may have asked something, or maybe it was Mr. Moran, about--or 
it could have been Mr. Hinchey. If there is anybody else who 
wants to raise your hand, I will call your name. But he had 
said something in terms of the private sector limiting your 
ability to be flexible. Well, you know, that is what is going 
to happen when you are operating on other people's money 
anyhow. So you can't--I mean, if you are the Annenberg School 
of News, you can do whatever the heck you want, it is all your 
funds. But in NEH, you have to be a lot more sensitive.
    So I just think that your efforts have been wise, and the 
criticism that you have received would have probably come. And, 
you know, again, the $7 million I think is because of what you 
have done.

                            REGIONAL CENTERS

    One other question. In terms of the regional centers, I am 
concerned that you are setting up centers that will become 
constituency groups, that will become lobbying groups; that in 
time we will say, now we have got these 10 centers in place, we 
need more money. Which no one in Washington would ever do 
something like that. But have you thought in terms of where 
those are going to head?
    Mr. Ferris. We have.
    Mr. Kingston. You know, we don't really need to plant more 
seeds for larger bricks-and-mortar funding projects.
    Mr. Ferris. Let me stress, these are Challenge grants, and 
they are like all our Challenge grants for a project. Once the 
project is funded, then they are free standing and they have no 
further claim or responsibilities with this agency. They are 
within universities, and certainly these universities can and 
will apply for other NEH grants. But the regional centers will 
have no commitments, or there is no commitment to further 
funding once the Challenge grant is met.
    It is the same as the virtual project in Savannah. They are 
creating a Website that will enrich Savannah's cultural 
traditions and history. That in no way precludes them from 
requesting more money, but it certainly doesn't guarantee they 
will get it.
    Unlike our State humanities councils, these regional 
centers are simply projects within universities, but they are 
going to be very significant projects within those 
universities.
    Mr. Kingston. We need to get you over to that Savannah site 
also. It is very interesting. The committee Members might be 
interested to know, but you could log into any site, any map 
location, from a flat standpoint, make it into a 3-D map, and 
then see what was going on there in 1750 or 1850 or whatever. 
It is really great research and development, and I think it 
would be the standard in the future in terms of historicals.
    How much coordination do you do with libraries on your 
library----

                           NEH AND LIBRARIES

    Mr. Ferris. A great deal. One of our working papers here 
goes into great depths about libraries, pointing out something 
I didn't know, which is that there are more libraries in this 
country than McDonald's. And libraries are changing. The future 
library is going to be very different than the one we went to 
to check out books. It is going to be a community center where 
people gather for public discussions. It is going to be a 
technology center. And we are looking very closely about how we 
are to best invest our support within libraries.
    We are also encouraging partnerships between public schools 
through our Schools for a New Millennium program. Grantees are 
partnering with libraries and museums, universities, so that 
they create coalitions. These are all part of the many hands 
that make light work within the humanities community.
    Mr. Kingston. Do you do anything with talking books?
    Mr. Ferris. We do a lot with book projects, with literacy 
projects, and talking books certainly would be a part of that. 
We have projects that we have helped spreadacross the Nation--
like motherread, where you have children teaching mothers to read, 
``Prime Time, Family Reading Time,'' and other prototype literacy 
projects that are essentially developed through our State humanities 
councils.
    Mr. Kingston. Well, I appreciate it.
    Mr. Ferris. I would stress one thing. The regional 
humanities centers, because of the Challenge grant, will be 
funded with a full endowment. The idea is that almost all of 
this money will be put into an endowment. So that will 
essentially allow them to be self-sustaining from now on.
    Mr. Kingston. I think that would be good. And maybe that is 
something we need to make sure happens by legislation or 
something like that; not to tie your hands, but just to make 
sure we are not creating that ongoing constituency for funding. 
Thank you very much.
    Mr. Ferris. Thank you, sir.
    Mr. Skeen. Dr. Ferris, thank you. You have done an 
outstanding job. We appreciate very much your informative 
testimony. And this hearing is now adjourned.
    Mr. Ferris. Thank you very much, sir.
    Mr. Skeen. You have done very well.
    Mr. Ferris. It is an honor to appear before you, and we are 
deeply grateful for the support of you and the rest of the 
members of this committee.
    Mr. Skeen. Well, you mentioned a lot of places in New 
Mexico, and we appreciate that.
    Mr. Ferris. That is a beautiful State.
    Mr. Skeen. The hearing is now adjourned.
    Mr. Kingston. I bet he mentions even more next year, Mr. 
Chairman, for some reason.
    [Questions for the record follow:]
    [GRAPHIC] [TIFF OMITTED] T2391A.225
    
    [GRAPHIC] [TIFF OMITTED] T2391A.226
    
    [GRAPHIC] [TIFF OMITTED] T2391A.227
    
    [GRAPHIC] [TIFF OMITTED] T2391A.228
    
    [GRAPHIC] [TIFF OMITTED] T2391A.229
    
    [GRAPHIC] [TIFF OMITTED] T2391A.230
    
    [GRAPHIC] [TIFF OMITTED] T2391A.231
    
    [GRAPHIC] [TIFF OMITTED] T2391A.232
    
    [GRAPHIC] [TIFF OMITTED] T2391A.233
    
    [GRAPHIC] [TIFF OMITTED] T2391A.234
    
    [GRAPHIC] [TIFF OMITTED] T2391A.235
    
    [GRAPHIC] [TIFF OMITTED] T2391A.236
    
    [GRAPHIC] [TIFF OMITTED] T2391A.237
    
    [GRAPHIC] [TIFF OMITTED] T2391A.238
    
    [GRAPHIC] [TIFF OMITTED] T2391A.239
    
    [GRAPHIC] [TIFF OMITTED] T2391A.240
    
    [GRAPHIC] [TIFF OMITTED] T2391A.241
    
    [GRAPHIC] [TIFF OMITTED] T2391A.242
    
    [GRAPHIC] [TIFF OMITTED] T2391A.243
    
    [GRAPHIC] [TIFF OMITTED] T2391A.244
    
    [GRAPHIC] [TIFF OMITTED] T2391A.245
    
    [GRAPHIC] [TIFF OMITTED] T2391A.246
    
    [GRAPHIC] [TIFF OMITTED] T2391A.247
    
    [GRAPHIC] [TIFF OMITTED] T2391A.248
    
    [GRAPHIC] [TIFF OMITTED] T2391A.249
    
    [GRAPHIC] [TIFF OMITTED] T2391A.250
    
    [GRAPHIC] [TIFF OMITTED] T2391A.251
    
    [GRAPHIC] [TIFF OMITTED] T2391A.252
    
    [GRAPHIC] [TIFF OMITTED] T2391A.253
    
    [GRAPHIC] [TIFF OMITTED] T2391A.254
    
    [GRAPHIC] [TIFF OMITTED] T2391A.255
    
    [GRAPHIC] [TIFF OMITTED] T2391A.256
    
    [GRAPHIC] [TIFF OMITTED] T2391A.257
    
    [GRAPHIC] [TIFF OMITTED] T2391A.258
    
    [GRAPHIC] [TIFF OMITTED] T2391A.259
    
    [GRAPHIC] [TIFF OMITTED] T2391A.260
    
    [GRAPHIC] [TIFF OMITTED] T2391A.261
    
    [GRAPHIC] [TIFF OMITTED] T2391A.262
    
    [GRAPHIC] [TIFF OMITTED] T2391A.263
    
    [GRAPHIC] [TIFF OMITTED] T2391A.264
    
    [GRAPHIC] [TIFF OMITTED] T2391A.265
    
    [GRAPHIC] [TIFF OMITTED] T2391A.266
    
    [GRAPHIC] [TIFF OMITTED] T2391A.267
    
    [GRAPHIC] [TIFF OMITTED] T2391A.268
    
    [GRAPHIC] [TIFF OMITTED] T2391A.269
    
    [GRAPHIC] [TIFF OMITTED] T2391A.270
    
    [GRAPHIC] [TIFF OMITTED] T2391A.271
    
    [GRAPHIC] [TIFF OMITTED] T2391A.272
    
    [GRAPHIC] [TIFF OMITTED] T2391A.273
    
    [GRAPHIC] [TIFF OMITTED] T2391A.274
    
    [GRAPHIC] [TIFF OMITTED] T2391A.275
    
    [GRAPHIC] [TIFF OMITTED] T2391A.276
    
    [GRAPHIC] [TIFF OMITTED] T2391A.277
    
    [GRAPHIC] [TIFF OMITTED] T2391A.278
    
    [GRAPHIC] [TIFF OMITTED] T2391A.279
    
    [GRAPHIC] [TIFF OMITTED] T2391A.280
    
    [GRAPHIC] [TIFF OMITTED] T2391A.281
    
    [GRAPHIC] [TIFF OMITTED] T2391A.282
    
    [GRAPHIC] [TIFF OMITTED] T2391A.283
    
    [GRAPHIC] [TIFF OMITTED] T2391A.284
    
    [GRAPHIC] [TIFF OMITTED] T2391A.285
    
    [GRAPHIC] [TIFF OMITTED] T2391A.286
    
    [GRAPHIC] [TIFF OMITTED] T2391A.287
    
    [GRAPHIC] [TIFF OMITTED] T2391A.288
    
    [GRAPHIC] [TIFF OMITTED] T2391A.289
    
    [GRAPHIC] [TIFF OMITTED] T2391A.290
    
    [GRAPHIC] [TIFF OMITTED] T2391A.291
    
    [GRAPHIC] [TIFF OMITTED] T2391A.292
    
    [GRAPHIC] [TIFF OMITTED] T2391A.293
    
    [GRAPHIC] [TIFF OMITTED] T2391A.294
    
    [GRAPHIC] [TIFF OMITTED] T2391A.295
    
    [GRAPHIC] [TIFF OMITTED] T2391A.296
    
    [GRAPHIC] [TIFF OMITTED] T2391A.297
    
    [GRAPHIC] [TIFF OMITTED] T2391A.298
    
    [GRAPHIC] [TIFF OMITTED] T2391A.299
    
    [GRAPHIC] [TIFF OMITTED] T2391A.300
    
    [GRAPHIC] [TIFF OMITTED] T2391A.301
    
    [GRAPHIC] [TIFF OMITTED] T2391A.302
    
    [GRAPHIC] [TIFF OMITTED] T2391A.303
    
    [GRAPHIC] [TIFF OMITTED] T2391A.304
    
    [GRAPHIC] [TIFF OMITTED] T2391A.305
    
    [GRAPHIC] [TIFF OMITTED] T2391A.306
    
    [GRAPHIC] [TIFF OMITTED] T2391A.307
    
    [GRAPHIC] [TIFF OMITTED] T2391A.308
    
    [GRAPHIC] [TIFF OMITTED] T2391A.309
    
    [GRAPHIC] [TIFF OMITTED] T2391A.310
    
    [GRAPHIC] [TIFF OMITTED] T2391A.311
    
    [GRAPHIC] [TIFF OMITTED] T2391A.312
    
    [GRAPHIC] [TIFF OMITTED] T2391A.313
    
    [GRAPHIC] [TIFF OMITTED] T2391A.314
    
    [GRAPHIC] [TIFF OMITTED] T2391A.315
    
    [GRAPHIC] [TIFF OMITTED] T2391A.316
    
    [GRAPHIC] [TIFF OMITTED] T2391A.317
    
    [GRAPHIC] [TIFF OMITTED] T2391A.318
    
    [GRAPHIC] [TIFF OMITTED] T2391A.319
    
    [GRAPHIC] [TIFF OMITTED] T2391A.320
    
    [GRAPHIC] [TIFF OMITTED] T2391A.321
    
    [GRAPHIC] [TIFF OMITTED] T2391A.322
    
    [GRAPHIC] [TIFF OMITTED] T2391A.323
    
    [GRAPHIC] [TIFF OMITTED] T2391A.324
    
    [GRAPHIC] [TIFF OMITTED] T2391A.325
    
    [GRAPHIC] [TIFF OMITTED] T2391A.326
    
    [GRAPHIC] [TIFF OMITTED] T2391A.327
    
    [GRAPHIC] [TIFF OMITTED] T2391A.328
    
    [GRAPHIC] [TIFF OMITTED] T2391A.329
    
    [GRAPHIC] [TIFF OMITTED] T2391A.330
    
    [GRAPHIC] [TIFF OMITTED] T2391A.331
    
    [GRAPHIC] [TIFF OMITTED] T2391A.332
    
    [GRAPHIC] [TIFF OMITTED] T2391A.333
    
    [GRAPHIC] [TIFF OMITTED] T2391A.334
    
    [GRAPHIC] [TIFF OMITTED] T2391A.335
    
    [GRAPHIC] [TIFF OMITTED] T2391A.336
    
    [GRAPHIC] [TIFF OMITTED] T2391A.337
    
    [GRAPHIC] [TIFF OMITTED] T2391A.338
    
    [GRAPHIC] [TIFF OMITTED] T2391A.339
    
    [GRAPHIC] [TIFF OMITTED] T2391A.340
    
    [GRAPHIC] [TIFF OMITTED] T2391A.341
    
    [GRAPHIC] [TIFF OMITTED] T2391A.342
    
    [GRAPHIC] [TIFF OMITTED] T2391A.343
    
    [GRAPHIC] [TIFF OMITTED] T2391A.344
    
    [GRAPHIC] [TIFF OMITTED] T2391A.345
    
    [GRAPHIC] [TIFF OMITTED] T2391A.346
    
    [GRAPHIC] [TIFF OMITTED] T2391A.347
    
    [GRAPHIC] [TIFF OMITTED] T2391A.348
    
    [GRAPHIC] [TIFF OMITTED] T2391A.349
    
    [GRAPHIC] [TIFF OMITTED] T2391A.350
    
    [GRAPHIC] [TIFF OMITTED] T2391A.351
    
    [GRAPHIC] [TIFF OMITTED] T2391A.352
    
    [GRAPHIC] [TIFF OMITTED] T2391A.353
    
    [GRAPHIC] [TIFF OMITTED] T2391A.354
    
    [GRAPHIC] [TIFF OMITTED] T2391A.355
    
    [GRAPHIC] [TIFF OMITTED] T2391A.356
    
    [GRAPHIC] [TIFF OMITTED] T2391A.357
    
    [GRAPHIC] [TIFF OMITTED] T2391A.358
    
    [GRAPHIC] [TIFF OMITTED] T2391A.359
    
    [GRAPHIC] [TIFF OMITTED] T2391A.360
    
    [GRAPHIC] [TIFF OMITTED] T2391A.361
    
    [GRAPHIC] [TIFF OMITTED] T2391A.362
    
    [GRAPHIC] [TIFF OMITTED] T2391A.363
    
    [GRAPHIC] [TIFF OMITTED] T2391A.364
    
    [GRAPHIC] [TIFF OMITTED] T2391A.365
    
    [GRAPHIC] [TIFF OMITTED] T2391A.366
    
    [GRAPHIC] [TIFF OMITTED] T2391A.367
    
    [GRAPHIC] [TIFF OMITTED] T2391A.368
    
    [GRAPHIC] [TIFF OMITTED] T2391A.369
    
    [GRAPHIC] [TIFF OMITTED] T2391A.370
    
    [GRAPHIC] [TIFF OMITTED] T2391A.371
    
    [GRAPHIC] [TIFF OMITTED] T2391A.372
    
    [GRAPHIC] [TIFF OMITTED] T2391A.373
    
    [GRAPHIC] [TIFF OMITTED] T2391A.374
    
    [GRAPHIC] [TIFF OMITTED] T2391A.375
    
    [GRAPHIC] [TIFF OMITTED] T2391A.376
    
    [GRAPHIC] [TIFF OMITTED] T2391A.377
    
    [GRAPHIC] [TIFF OMITTED] T2391A.378
    
    [GRAPHIC] [TIFF OMITTED] T2391A.379
    
    [GRAPHIC] [TIFF OMITTED] T2391A.380
    


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Bloomfield, S.J..................................................   416
Ferris, W.R......................................................   219
Friedman, R.L....................................................   392
Ivey, Bill.......................................................    47
Kaiser, M.M......................................................    36
Sheppard, Beverly................................................   297
Slater, C.B......................................................   342
Small, L.M.......................................................     2


                               I N D E X

                              ----------                              

                              Smithsonian

                                                                   Page
Questions for the Record from the Committee......................     8
Testimony of Lawrence M. Small, Secretary........................     2

                         John F. Kennedy Center

Testimony of Michael M. Kaiser, President........................    36

                    National Endowment for the Arts

Addressing Challenges............................................    51
Arts Education...................................................    65
Arts Education...................................................    72
Arts Funding.....................................................    71
Biography of Bill Ivey, Chairman NEA.............................    64
Challenge America Program........................................48, 49
Challenge Grants in Seattle......................................    67
Continental Harmony Program......................................    50
Copyrights-Songs of the Century..................................    71
Critics..........................................................    69
Cultural Organizations...........................................    67
Department of Education..........................................    66
Grant Tracking...................................................    70
Leadership Initiatives...........................................49, 50
NEA History......................................................    67
NEA Reforms......................................................    68
Opening Statement of Mr. Ivey....................................    47
Partnerships: Public and Private.................................    51
Questions for the Record:
    Administration of NEA........................................   192
    Alternative Funding..........................................    98
    Funding Priorities...........................................   102
    Impact of FY 1998 Reforms....................................    79
    National Council on the Arts.................................    97
    Outreach Efforts--Challenge America..........................    74
    Partnerships.................................................   191
    Programs and Grants..........................................   104
Questions for the Record submitted by Congressman Dicks..........   200
Size of Grants...................................................    50
Songs of the Century.............................................51, 70
Trends...........................................................49, 50
Written Statement of Mr. Ivey....................................    53

                 National Endowment for the Humanities

Biography of William R. Ferris...................................   245
Dispersal of Funding.............................................   252
Encouraging Private Support......................................   249
Expanding Access Via Digital Technology..........................   247
Family History...................................................   235
Funding..........................................................   249
Georgia Center for Character Education...........................   252
Grants and Programs..............................................   235
Helping Humanities Teachers......................................   246
Leveraging Nonfederal Support....................................   257
Libraries........................................................   234
NEH and Libraries................................................   259
Opening Remarks..................................................   219
Opening Statement of:
    Mr. Dicks....................................................   219
    Mr. Obey.....................................................   220
Oral History.....................................................   248
Private Funding..................................................   251
Questions for the Record:
    Accomplishments..............................................   261
    Administrative Issues........................................   290
    Authorization................................................   271
    Developing New Audiences.....................................   272
    Digital Technology...........................................   285
    Education....................................................   262
    Funding Priorities...........................................   268
    Regional Humanities Centers..................................   276
    Research and Preservation....................................   277
    State Programs...............................................   283
Questions for the Record submitted by Congressman Dicks..........   292
Rediscovering America..........................................223, 236
Regional Centers.................................................   258
Regional Humanities Centers....................................234, 248
Remarks of Mr. Hinchey...........................................   247
State and Local Institutions.....................................   236
Statement of:
    Chairman Bill Ferris.........................................   222
    Mr. Moran....................................................   250
Uses of Increased Funding........................................   246
World History....................................................   251
World Wide Web and the Internet..................................   235
Written Statement of Mr. Ferris..................................   238

                Institute of Museum and Library Services

Questions for the Record from the Committee......................   303
Testimony of Beverly Sheppard, Acting Director...................   297

                        Commission of Fine Arts

Questions for the Record from the Committee......................   328
Statement for the Record.........................................   322

               Advisory Council on Historic Preservation

Questions for the Record from the Committee......................   347
Testimony of Cathryn Buford Slater, Chairman.....................   342

                  National Capital Planning Commission

Questions for the Record from the Committee......................   398
Testimony of Richard L. Friedman, Chairman.......................   392

                       Holocaust Memorial Museum

Testimony of Sara J. Bloomfield, Director........................   416


</pre></body></html>
